                                               FOREWORD

It is my pleasure to report on the accomplishments of the Office of the Inspector General, Department of
Defense, for the period April 1, 2000, through September 30, 2000. This Semiannual Report summarizes
significant Department-wide audit and investigative efforts. Oversight projects relating to the intelligence
community are discussed in a separate classified annex.

The Highlights section provides an overview of the most significant issues discussed in the report. Chapter One
contains brief updates on what we consider to be the Department’s principal high-risk areas. We have also
included a more detailed discussion of a special emphasis area, Environmental Programs. Chapter Two includes
discussions of other important audit and investigative efforts that took place during the period, resulting in
significant criminal prosecutions and the identification of large dollar savings and recoveries.

Throughout the reporting period, the Office of the Inspector General was active in reporting to Congress on its
activities and in responding to requests from Members and committees. At the request of congressional
committees of the House and Senate, we testified on a wide variety of audit and investigative efforts.

In our last two reports I indicated that although the Department budgeted for urgently needed additional
resources, the Congress reduced our fiscal year 2000 appropriation. We requested that our resource require-
ments as forwarded in the fiscal year 2001 President’s Budget be supported. I would like to express my thanks to
the Congress for fully funding our fiscal year 2001 request. This support will enable us to restore much needed
coverage to many of the high-risk areas discussed in this edition of our Semiannual Report.

In consonance with the emphasis being placed on the Government Performance Results Act, we are making
every effort to achieve performance oriented, measurable results, based on the investment the American
taxpayer makes in our agency. I believe the following results speak for themselves. Over the period April 1,
2000, to September 30, 2000, our auditors caused the Department to realize $201.8 million in monetary benefits,
and provided over 639 recommendations that were agreed to by Departmental managers, with a 96 percent
recommendation success rate. During this same period the special agents of the Defense Criminal Investigative
Service, our investigative arm, were responsible for 191 indictments and 152 convictions, while returning
$348.5 million in fines, restitution and recoveries to the U.S. Treasury. When one considers the size of our
annual operating budget for fiscal year 2000, it becomes quite clear that we are one of a very few Government
agencies that “pays its own way,” and then some.

The men and women of the Office of the Inspector General are committed to providing a level of oversight to
the Department of Defense that materially contributes to the safety, efficiency, and effectiveness of our Nation’s
Armed Forces.




                                               Donald Mancuso
                                           Acting Inspector General
This page left blank intentionally
Semiannual Report to the Congress                                                                                                 Table of Contents




                                                TABLE OF CONTENTS
HIGHLIGHTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                i
      Introduction . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .        i
      Environmental Programs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                 ii
      Other Activities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .         ii

CHAPTER ONE – REDUCE HIGH RISK VULNERABILITIES . . . . . . . . . . . . . . . . . . . . .                                                                1
      Introduction . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .        1
      Acquisition. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .        1
      Financial Management. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                 4
      Information Technology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                  6
      Infrastructure . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .        7

      Special Emphasis Area--Environmental Programs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                        11
          Cleanup. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .         12
          Compliance. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .            14
          Prevention. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .          15
          Other Concerns . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .             15
          Summary. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .           15

CHAPTER TWO - SIGNIFICANT ACTIVITIES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                               13
      Introduction . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .       17
      Criminal Investigations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .              17
      Hotline . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .    25
      Administrative Investigations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                  25
      Criminal Investigative Policy and Oversight. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                           29
      Auditing . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .     30
      Intelligence Review . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .            33

APPENDICES
      A. Reports Issued by Central DoD Internal Audit Organizations . . . . . . . . . . . . . . . . . . . .                                           A-1
      B. Inspector General, DoD, Audit Reports Issued Containing
         Quantifiable Potential Monetary Benefits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                             B-1
      C. Followup Activities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                C-1
      D. Contract Audit Reports Issued. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                       D-1

FIGURES
      1.     Defense Criminal Investigative Organizations Case Results. . . . . . . . . . . . . . . . . . . . . .                                      18
      2.     Military Whistleblower Reprisal Cases Open as of September 30, 2000 . . . . . . . . . . . .                                               27
Table of Contents                                                                            Semiannual Report to the Congress




    3.   Whistleblower Reprisal Cases by Category of Employee
         Open as of September 30, 2000 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .          27
    4.   Program Integrity - Senior Official Inquiries Open as of September 30, 2000 . . . . . . . .                                    28
    5.   Program Integrity - Nature of Substantiated Allegations Against Senior
         Officials During 1st Half FY 00 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .          28
    6.   Intelligence Oversight . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   34
Semiannual Report to the Congress                                                            Highlights




HIGHLIGHTS

INTRODUCTION                During the 6-month period ending September 30, 2000, the Office of the
                            Inspector General, Department of Defense, (OIG, DoD), continued to
                            place emphasis on reducing vulnerabilities and improving controls in the
                            principal high risk areas in the Department: Acquisition, Financial
                            Management, Information Technology, and Infrastructure. In this report,
                            we also give emphasis to issues involving Environmental Programs.

 Acquisition                The scope, complexity, variety, and frequent instability of Defense
                            acquisition programs pose particularly daunting management challenges.
                            Twenty-two audit reports issued during the reporting period continued to
                            indicate a lack of effective means for identifying best commercial prac-
                            tices and adapting them to the public sector; poor oversight of the several
                            hundred medium and small acquisition programs; testing issues on vital
                            weapons systems; and adverse consequences from cutting the acquisition
                            workforce in half without a proportional decrease in workload. Of 17
                            major weapon acquisition programs approved at key development
                            milestones between March 1996 and July 1999, 14 lacked clearly defined
                            open system design objectives or a strategy for achieving such objectives.
                            We believe the Department needs to put more acquisition reform
                            emphasis on ensuring the quality, serviceability, and safety of purchased
                            equipment, parts, and supplies.

 Financial                  During this period, 88 of 224 internal audit reports addressed finance and
 Management                 accounting issues. Nearly all of those 88 reports concerned financial
                            statements or systems. Despite the massive audit effort, the DoD could not
                            overcome the fundamental inadequacy of its financial reporting systems
                            and produce reliable data through the patchwork of processes needed to
                            compile financial statements. Numerous statements and testi-mony to
                            Congress by the Office of Management and Budget, the General
                            Accounting Office, and DoD officials have stressed that the ultimate goal
                            of financial management reform legislation is to ensure useful financial
                            information for sound decision-making, not merely clean audit opinions
                            on annual financial statements.

 Information                It is difficult to see substantive improvement since 1996 with respect to
 Technology                 improving risk management in information system acquisition. Recent
                            audits continued to identify numerous projects that have failed or are at
                            risk. Successfully completing the implementation of the Clinger-Cohen
                            Act and achieving drastically improved results from information system
                            investments must be top DoD priorities. There were 20 audit reports on

                                                  i
Highlights                                                    Semiannual Report to the Congress




                   information technology issued in the reporting period. The most fre-
                   q uen tly i den tified manag ement weak ness was po orly d efin ed
                   requirements for new or modified systems.

 Infrastructure    Several hundred initiatives are ongoing in the overall support area, most
                   involving the participation of the DoD acquisition, finance, or information
                   technology communities. During the reporting period, the central DoD
                   internal audit agencies issued 71 reports on a wide variety of DoD support
                   activity issues. Despite these efforts, oversight coverage of support
                   programs remains inadequate, especially in broad areas like health care
                   management and inventory control. There are significant concerns
                   regarding the readiness of military forces; civilian and military personnel
                   recruiting, retention, and training; military personnel quality of life issues,
                   such as housing and health care; and the effectiveness of administrative
                   processes.

ENVIRONMENTAL      The DoD is responsible for 639 major installations and 25 million acres of
PROGRAMS           land. Specific activities at defense installations include industrial opera-
                   tions, storage and use of chemicals, firing ranges, large-scale vehicle and
                   aircraft maintenance, fuels handling, and other functions that can pose
                   environmental challenges. There is a need for expert oversight and inves-
                   tigative support in the Environmental Security Program and we are taking
                   measures to enhance related training. The DoD must comply with a wide
                   range of legal and regulatory environmental requirements, most of which
                   apply to several facets of the handling of hazardous substances, not just
                   cleanup after pollution or contamination occurs. Recent audits have indi-
                   cated steady improvement in the sophistication and effectiveness of DoD
                   approaches to cleanup challenges. All four Defense Criminal Investi-
                   gative Organizations have been active over the past several years in
                   combating the fraud perpetuated primarily by contractors involved in
                   waste cleanup and disposal. Numerous audit reports have indicated the
                   need to do more to motivate the acquisition community to minimize the
                   use of toxic materials when designing and procuring weapon systems,
                   munitions, and other material.

OTHER ACTIVITIES   The investigative community was highly successful with 263 indictments,
                   262 convictions, and over $182 million in monetary outcomes in
                   procurement and health care fraud investigations. The DoD Hotline
                   received 6,032 telephone calls and letters resulting in the initiation of
                   1,531 cases. Since 1982, over $420 million has been recovered as a direct
                   result of information provided to the Hotline. During this period, the OIG,
                   DoD, and the Military Department Inspectors General received 260
                   complaints of whistleblower reprisal.

                                          ii
Semiannual Report to the Congress                                                         Chapter One




CHAPTER ONE – REDUCE HIGH RISK VULNERABILITIES

INTRODUCTION                The decade of the 1990’s brought the post-Cold War downsizing and
                            repositioning of U.S. military forces, as well as the advent of information
                            technology driven revolutions in military capabilities and management
                            practices. The Department of Defense (DoD) was challenged by budget
                            constraints, statutory mandates for reform, the enormous difficulty of
                            having to reengineer virtually all of its processes and organizations
                            simultaneously, and the emergence of radically new threats and potential
                            vulnerabilities. It was a decade of many successes, ranging from battle-
                            field victory in the Gulf War to avoiding large-scale Y2K conversion
                            problems. Nevertheless, considerable work needs to be done to institu-
                            tionalize, evaluate, supplement, and build upon the reforms of the 1990’s
                            in all DoD high-risk management areas. In this Chapter, we discuss
                            oversight results and challenges related to Acquisition, Financial
                            Management, Information Technology, and Infrastructure. We also
                            discuss a Special Emphasis Area—Environmental Programs.

ACQUISITION                 Although the DoD has been continuously working on acquisition reform
                            for at least 20 years, the Federal Acquisition Streamlining Act of 1994 and
                            other legislation provided forceful impetus during the 1990’s. In response,
                            the Department adopted the goal of becoming a world-class buyer of best
                            value goods and services from a globally competitive industrial base. The
                            DoD hopes to achieve this transformation through rapid insertion of
                            commercial practices and technology, business process improvements,
                            creating a workforce that is continuously retrained to operate in new
“...[T]he DoD initiated an unprecedented environments, and heavily emphasizing faster delivery
number of major improvement efforts,           of material and services to users. To fulfill these
including at least 40 significant              objectives, the DoD initiated an unprecedented number
acquisition reform initiatives.”               of major improvement efforts, including at least 40
                                               significant acquisition reform initiatives.

                            The Department has made notable progress in acquisition reform and also
                            set several commendable goals. Examples include:

                                    • De-emphasizing overly detailed military specifications and
                                      standards.

                                    • Using credit cards for over 9 million small purchases by 2000.




                                                  1
Chapter One                                                          Semiannual Report to the Congress




                                    • Pushing for public and private sector implementation of public
                                      key infrastructure technology to enable secure electronic
                                      commerce.

                                    • Replacing multiple, inconsistent Government-unique require-
                                      ments imposed on contractors holding more than one Defense
                                      contract with common, best, facility-wide processes.

                                    • Establishing aggressive weapon system unit cost and total
                                      ownership cost targets, which are 20 to 50 percent below histori-
                                      cal norms.

                                             Despite the previous successes and continued promise of
“No major acquisition cost reduction
goals have yet been achieved...the
                                            reforms, the business of creating and sustaining the
results of most of the specific initiatives world’s most powerful military force remains expensive
are still to be determined.”                and vulnerable to fraud, waste, and mismanage-ment. In
                                              fiscal year 1999, the DoD purchased about $140 billion
                           in goods and services, in 14.8 million purchasing actions, which translates
                           to 57,000 purchasing actions on an average working day. Statistics for
                           fiscal year 2000 are not yet available, but will be similar. The scope, com-
                           plexity, variety, and frequent instability of Defense acquisition programs
                           pose particularly daunting management challenges. No major acquisition
                           cost reduction goals have yet been achieved, and the results of most of the
                           specific initiatives are still to be determined.

                           In the rush to streamline and incorporate commercial practices and
                           products, the Department cannot compromise its insistence on quality
                           products and services at fair and reasonable prices. An inherent challenge
                           throughout the Department’s acquisition reform effort is ensuring that
                                                          critically needed controls remain in place
                                                          and there is proper oversight and feedback
                                                          on new processes.

                                                          The 22 audit reports issued during the
                                                          reporting period and follow-up on previous
                                                          audits continued to indicate a lack of
                                                          effect i ve means f or i dent i fying best
                                                          commercial practices and adapting them to
                                                          the public sector. They also indicate poor
                                                          oversight of the several hundred medium
                                                          and small acquisition programs, testing
                                                          issues on vital weapon systems like the V-22
                      V-22 Osprey
                                                          Osprey and Joint Biological Point Detection

                                                  2
Semiannual Report to the Congress                                                          Chapter One




                            System, and adverse consequences from cutting the acquisition workforce
                            in half without a proportional decrease in workload.

                            It is clear that each reform initiative needs periodic evaluation, based on
                            quantifiable performance measures, and fine tuning. There is a tendency,
                            however, for initiatives to be put into place without explicit provision for
                            periodic and objective review. For example, in 1994 the Under Secretary
                            of Defense for Acquisition, Technology, and Logistics mandated the use
                            of an “open systems” approach in the acquisition process to reduce the
                            cost of ownership of weapons systems while increasing competition,
                            interoperability, and useful life. The OIG, DoD, reported in June 2000
                            that, of 17 major weapon acquisition programs approved at key develop-
                            ment milestones between March 1996 and July 1999, 14 programs lacked
                            clearly defined open system design objectives or a strategy for achieving
                            such objectives. In addition, DoD guidance did not require program
                            managers to assess the impact of a given level of design openness on the
                            long-term viability and affordability of systems. Without a means to
                            measure the progress and the impact of implementing an open systems
                            approach, acquisition decision makers cannot readily gauge how well
                            program managers are achieving the advantages of using an open systems
                            design approach or assessing the susceptibility of a weapon systems
                            design to obsolescence or costly upgrades to counter foreign military
                            threats. The problems in implementing this particular initiative are typical
                            of those to be expected in mandated reforms that may not be adequately
                            understood, fully supported, or enforced over time.

                                       Although the DoD must continue to address the challenge of
“...quality should be the most
important attribute for DoD
                                       how to control the cost of purchased goods and services, the
purchases, especially for materiel     most fundamental acquisition issues confronting the
used by the warfighters.”              Department relate to requirements and funding. The expanding
                                       n ati onal dialog ue on milit ary mi ssio ns, t he p end ing
                            Quadrennial Defense Review, and the ideas of a new administration and
                            Congress could significantly alter DoD missions, military force structure,
                            and acquisition requirements. Whether changes in requirements are major
                            or minor, funding levels are also likely to change, and there needs to be a
                            far reaching rebalancing of acquisition programs to match available
                            funding.

                            Finally, we believe that the Department needs to put more acquisition
                            reform emphasis on ensuring the quality, serviceability, and safety of
                            purchased equipment, parts, and supplies. Concentrating on prices and
                            timely delivery is vital, but quality should be the most important attribute
                            for DoD purchases, especially for materiel used by the warfighters. The

                                                  3
Chapter One                                                         Semiannual Report to the Congress




                            OIG, DoD, plans to issue at least two reports per year on product quality
                            for the indefinite future. We will also continue to make product substitu-
                            tion a top criminal investigative priority.

FINANCIAL                   The impact of the Chief Financial Officers Act and related legislation on
MANAGEMENT                  the DoD audit community was graphically illustrated during the reporting
                            period, when 88 of 224 internal audit reports (39 percent) addressed
                            finance and accounting issues. Nearly all of those 88 reports concerned
                            financial statements or systems, as opposed to financial management
                            issues like cost estimating, contract payments, or debt collection.

                           Despite the massive audit effort, the DoD could not overcome the funda-
                           mental inadequacy of its financial reporting systems and produce reliable
                           data through the patchwork of processes needed to compile financial
                           statements. As reported in our previous Semiannual Report, only one of
                           DoD’s reporting entities, the Military Retirement Fund, received a clean
                           audit opinion for fiscal year 1999 financial statements.

                           The DoD now estimates that all finance and accounting systems will
                           comply with the new Federal accounting standards and related require-
                           ments in fiscal year 2003. The forecast for the feeder systems that provide
                           up to 80 percent of the data for the financial statements is less certain.
                           During the past 6 months, the Under Secretary of Defense (Comptroller)
                           took additional steps to apply the lessons learned from the successful DoD
                           Y2K conversion program to the financial system compliance effort. The
                           DoD Senior Financial Management Council, which had not met for
                           several years, is being reconstituted to ensure senior management involve-
                           ment and coordination. Unfortunately, the initial milestone to identify the
                           critical systems for financial reporting, March 2000, was unattainable and
                           efforts to define criticality and identify systems continue.

                            The OIG, DoD, General Accounting Office (GAO), and Military Depart-
                            ment auditors are developing a standard audit approach for validating the
                            progress of the critical systems toward full compliance. Resources
“One of the benefits of using the          permitting, we will seek to provide the same kind of strong
structured Y2K management                  support that helped the Y2K conversion to succeed, but the
approach...is that it provides good        system remediation and validation workload will require
metrics for...the DoD financial            considerable contractor support to the components,
management improvement effort.”            including the Defense Finance and Accounting Service.

                           One of the benefits of using the structured Y2K management approach for
                           financial systems compliance is that it provides good metrics for that
                           particular aspect of the DoD financial management improvement effort.

                                                  4
Semiannual Report to the Congress                                                         Chapter One




                            As welcome as those metrics will be for measuring system compliance
                            status, however, they will not measure the financial data’s usefulness to
                            managers and appropriators. Numerous recent statements and testimony
                            to Congress by the Office of Management and Budget (OMB), GAO, and
                            DoD officials stressed that the ultimate goal of financial management
                            reform legislation is to ensure useful financial information for sound
                            decision-making, not merely clean audit opinions on annual financial
                            statements. We strongly agree. Unfortunately, while audit opinions are a
                            simple and readily understandable metric, judging the usefulness of
                            financial information is far more difficult. The challenge of determining
                            additional ways to measure financial management improvement will carry
                            over into the next administration.

                            We also urge the new administration and Congress to work closely with
                            the Federal Accounting Standards Advisory Board to ensure that the still
                            evolving Federal accounting rules are focused on making Federal
                            accounting practices relevant to day-to-day financial management and
                            oversight in DoD and other agencies.

                          Lastly, we urge that mandatory audit requirements, especially for finan-
                          cial audits, be reconsidered to ensure they remain necessary and cost
                          effective. For example, the Comprehensive Environmental Response,
                          Compensation, and Liability Act (CERCLA), 42 U.S.C. 9611(k), requires
                          annual financial audits of all transactions of the Superfund, the trust fund
                          for response to hazardous waste emergencies and cleanup. The Army
“The 20-year-old requirement for a     Corps of Engineers manages the design and construction of
separate annual audit of Superfund cleanup paid for by the Environmental Protection Agency
transactions is outdated and not       from the Superfund. In fiscal year 1999, the Corps recorded
cost effective.”                       obligations and disbursements of $647 million.

                            The 20-year-old requirement for a separate annual audit of Superfund
                            transactions is outdated and not cost effective. It overlaps the broader
                            annual financial statement audit requirements of the Chief Financial
                            Officers Act and related legislation. Superfund transactions are processed
                            and reported in the same system used for overall Corps financial manage-
                            ment, and the overall financial statements of the Corps are audited
                            annually. Recent separate Superfund audits found no material discrep-
                            ancies. Risk in this particular category of transactions is low. The fiscal
                            years 1998 and 1999 audits indicated accounting report accuracy rates of
                            99.8 and 99.9 percent, respectively.

                            The OIG, DoD, does not believe that the disproportionate audit coverage
                            currently required for this one relatively small portion of DoD financial

                                                  5
Chapter One                                                          Semiannual Report to the Congress




                            reporting makes sense, given the absence of identifiable problems in
                            Corps Superfund reporting and the need to devote more audit resources to
                            the high risk areas discussed elsewhere in Chapter One, which include
                            other finance and environmental program areas. We proposed a legislative
                            change in December 1999 to delete the annual Superfund audit require-
                            ment. However, the Environmental Protection Agency objected to
                            amending the CERCLA, and the proposal was not forwarded to the
                            Congress. We plan to again attempt to have this change included in this
                            year’s DoD legislative proposals.

INFORMATION                Designing and implementing large information systems on schedule,
TECHNOLOGY                 within acceptable cost parameters and with full user satisfaction are
                           among the most difficult undertakings in both the public and private
                           sectors. The majority of such projects fail to meet at least one key goal. In
                           an attempt to instill discipline in Government information systems
                           investments, Congress passed the Information Management Technology
                           Reform Act, subsequently renamed the Clinger-Cohen Act, in 1996. The
                           Act required agencies to establish Chief Information Officers and vested
                           considerable authority in those positions, with the explicit expectation that
                           Government information management would improve in key areas, such
“After nearly 5 years, the DoD         as return on investment, system interoperability, and security.
record on implementing the sound
principles of the Clinger-Cohen Act After nearly 5 years, the DoD record on implementing the
and related OMB guidance is         sound principles of the Clinger-Cohen Act and related OMB
somewhat disappointing.”            guidance is somewhat disappointing. However, there has been
                                        notable success in developing the concept of the Global
                            Information Grid, fielding certain key systems like the Global Command
                            and Control System, overcoming the Y2K con-version problem, and
                            eliminating redundant in-house data processing capacity.

                            With respect to improving risk management in information system
                            acquisitions, however, it is difficult to see substantive improvement since
                            1996. The separate and ineffective information systems acquisition rules
                            were merged with the standard DoD weapon systems acquisition guide-
                            ines. New information system oversight procedures were drafted and
                            issued, but have not yet been finalized. The Department has compiled the
                            central registry of systems required by Section 8121 of the Defense
                            Appropriations Act for FY 2000 and has made the initial Clinger-Cohen
                            Act compliance certifications required under Section 8121 for major
                            systems at acquisition milestones. The OIG, DoD, will issue a series of
                            reports over the next several months on the effectiveness of the certifica-
                            tion process.


                                                   6
Semiannual Report to the Congress                                                         Chapter One




“Recent audits continued to            Recent audits continued to identify numerous projects that have
identify numerous [information         failed or are at risk. Examples include the Defense Joint
technology] projects that have         Accounting System, Defense Security Service Case Control
failed or are at risk.”                Management System, Defense Commissary Information
                            System, Defense Environmental Security Corporate Information
                            Management Program, and Joint Ammunition System. Successfully
                            completing the implementation of the Clinger-Cohen Act and achieving
                            drastically improved results from information system investments must be
                            top DoD priorities.

                            Our last Semiannual Report to the Congress discussed the growing threat
                            to DoD, other Government, and commercial information networks from
                            criminals, vandals, hostile states, and terrorists. We reported that, while
                            much effort was being made, the Government and DoD responses
                            remained disjointed. As of late 2000, there are still numerous policy gaps
                            and much work remains to develop effective coordination mechanisms,
                            especially for national infrastructure protection.

                            Virtually all DoD command, control, intelligence, and business functions
                            depend heavily on networked based information technologies. This
                            dependence is not bad in itself, since these technologies have enabled
                            dramatic increases in efficiency and capability, but the vulnerabilities
                            created by this dependence must be addressed. In addition to ensuring that
                            new systems are sufficiently capable, secure, and interoperable, the DoD
                            must focus over the next several years on the growing problems created
                            by under investment in information technology infrastructure; increased
                            competition for use of the radio frequency spectrum; and severe
                            recruiting, retention, and skills maintenance problems in the DoD infor-
                            mation technology workforce.
“The most frequently identified
                                      There were 20 audit reports on information technology issued
management weakness has been
poorly defined requirements for       in the reporting period, including a July 13, 2000, summary of
new or modified systems.”             audit findings on information system acquisition projects since
                                      1996. The most frequently identified management weakness
                            has been poorly defined requirements for new or modified systems.
                            Current audit efforts are emphasizing Clinger-Cohen Act and Section
                            8121 implementation, information assurance, long haul and base level
                            communications management, and accountability for information
                            technology equipment.

INFRASTRUCTURE              Throughout the past decade, the DoD has worked to cut costs across the
                            spectrum of support activities, which include supply, maintenance,
                            transportation, facilities, environmental security, health care,

                                                  7
Chapter One                                                       Semiannual Report to the Congress




                         telecommunications, and administrative operations. Modern information
                         technology offers opportunities to solve longstanding problems. In the
                         area of supply management, for example, the Department is using web-
                         based concepts through the Joint Total Asset Visibility Program to enable
                         logisticians to make more efficient procurement, redistribution, and
                         disposal choices. Likewise, adopting successful private sector manage-
                         ment concepts, such as direct vendor delivery, just-in-time availability of
                         materiel in the supply chain, and prime vendors, offers ways to reduce
                         inventory holding and distribution costs.
“The sheer number of initiatives
                                   Several hundred initiatives are ongoing in the overall support
creates a daunting change
management problem in its own
                                   area. Most of those initiatives involve the participation of the
right....”                         Do D acq uisi tio n, fi nance, o r inf ormati on t echn olo gy
                                   communities, adding complexity and coordination challenges.
                         The sheer number of initiatives creates a daunting change management
                         problem in its own right, as does the chronic lack of accurate cost
                         baselines for analyzing proposed process changes and measuring the
                         results of new initiatives. In addition, Congress has not always supported
                         DoD attempts to reduce support costs. For example, DoD requests for
                         additional base realignment and closure authority have not been approved,
                         nor have previous initiatives to reduce the costs of moving household
                         goods been supported.

                         Despite extensive reform efforts, DoD has not been able to reduce support
                         costs significantly. In turn, hopes that reduced support costs would free up
                         enough funds to solve shortages in weapon modernization programs have
                         proven unrealistic. In fact, the most serious support activities problems
                         confronting the Department no longer relate primarily to what costs can
                         be reduced. Instead, there are significant concerns in both the DoD and
                         Congress regarding the readiness of military forces; civilian and military
                         personnel recruiting, retention and training; military personnel quality of
                         life issues, such as housing and health care; and the effectiveness of
                         administrative processes, such as the Defense Personnel Security
                         Program. Addressing concerns of those types likely will require more
                         spending on support programs, not less.

                         Audit, inspection, and investigative support can help measure the results
                         of new processes; verify that data used for cost comparisons or other
                         decision making are accurate; ascertain the causes of readiness problems;
                         provide objective feedback on workforce morale issues; prevent and
                         detect fraud that detracts from efficiency in areas like property disposal
                         and health care; and help identify and spread best practices. During the
                         reporting period, the central DoD internal audit agencies issued 71 reports

                                               8
Semiannual Report to the Congress                                                       Chapter One




“...[O]versight coverage of support        on a wide variety of DoD support activity issues. Despite
programs remains inadequate,               these efforts, oversight coverage of support programs
especially in broad areas like health      remains inadequate, especially in broad areas like health
care management and inventory              care management and inventory control.
control.”
                                            Future challenges facing the Department in this area
                            likely will be driven by conflicting priorities for resources, continued
                            dependence on new or improved information management systems and,
                            perhaps most of all, the realities of military and civilian workforce
                            management in an era of intense competition for talented workers.




                                                 9
Chapter One                                    Semiannual Report to the Congress




              This page left blank intentionally




                            10
Semiannual Report to the Congress                          Special Emphasis Area--Information Assurance




ENVIRONMENTAL PROGRAMS

                          Environmental security has become an integral part of national security
                          policy, and prudent environmental management is considered to be sound
                          business practice. In the 1990’s, the DoD spent over $40 billion on
                          environmental programs, mostly to clean up hazardous waste at closed or
“...[P]rudent environmental       closing bases. About $3.7 billion was budgeted in fiscal year 2000
management is considered to       and $4.1 billion for fiscal year 2001.
be sound business practice.”
                                    The DoD is responsible for 639 major installations, many of which
                            are comparable to counties or cities, and 25 million acres of land. In
                            addition to the normal environmental concerns related to air, water, noise,
                            and refuse, the specific activities at defense installations include industrial
                            operations, storage and use of chemicals, firing ranges, large scale vehicle
                            and aircraft maintenance, fuels handling, and other functions that can pose
                            major environmental challenges. In most cases, the sites have been in
                            military use for many decades and the nature, extent, and severity of
                            previous problems may be very difficult to determine.

                            To address DoD environmental responsibility, the Environmental Security
                            Program has the following objectives:

                                    • Ensure compliance with environmental, health and safety laws
                                      and regulations.

                                    • Prevent pollution and minimize hazardous waste generation.

                                    • Conserve natural resources entrusted to DoD stewardship.

                                    • Cleanup and reduce risk from contaminated sites.

                                    • Protect the health and safety of military personnel, civilian
                                      employees and populations living near military installations.

                                    • Support U.S. international environmental security policies and
                                      initiatives.

                            The need for expert oversight and investigative support in this complex
                            area continues to be evident and we are taking measures to enhance
                            related training. For example, the Defense Criminal Investigative Service
                            (DCIS) developed a course and certification program, in conjunction with
                            the Navy Civil Engineer Corps Officer School, focused on fraud investi-

                                                   11
Special Emphasis Area--Information Assurance                          Semiannual Report to the Congress




                            gative techniques at hazardous waste sites. Similarly, the DoD central
                            audit agencies have elements that specialize in environmental issues and
                            coordinate oversight coverage through the Joint Audit Planning Group on
                            Environment.

                            Over 50 reviews and several dozen investigations have been completed in
                            this area during the two and a half years since we last discussed Environ-
                            ment as a focus topic in a semiannual report. The results of those efforts
                            give a fairly good indication of the nature of persisting vulnerabilities and
                            issues in DoD environmental programs, as well as an insight into progress
                            that has been made in some aspects.

                            The general challenges in this area include competing for resources;
                            achieving cost containment; assuring accurate risk assessments; coping
                            with constantly evolving standards and rules; countering fraud; and
                            meeting complex coordination requirements with host nations overseas,
                            other allies, U.S. state and local governments, and other Federal agencies.

                            In varying degrees, those general challenges pervade three specific facets
                            of the program: Cleanup, Compliance, and Prevention.

CLEANUP                     The DoD must focus simultaneously on removing hazardous waste and
                            other pollutants from active defense sites, cleaning up the dozens of sites
                            from the four base closure rounds between 1989 and 1995, and dealing
                            with known or potential cleanup requirements at 8,700 formerly used
                            defense sites, many of which are no longer Federal property. No two sites
                            are alike in terms of the nature and scope of the contamination, risk, and
                            cleanup cost. Each site may engender controversy with the local com-
                            munity, among scientific experts, and between Government agencies on
                            the appropriate cleanup approach and risk mitigation goal. For example,
                            we reported on issues involving the Arctic Slope of Alaska in September
                            1998 and the Massachusetts Military Reservation in October 1998. Both
                            of these reports discussed especially contentious issues.
“Recent audits have indicated steady
improvement in the sophistication and         Recent audits have indicated steady improvement in the
effectiveness of DoD approaches to            sophistication and effectiveness of DoD approaches to
cleanup challenges....”                       cleanup challenges, although cleanup at many closed
                                              locations remains behind initial schedules and much
                            needs to be done to accelerate progress or reassess the goals of those
                            efforts. In March 1998, we reported that groundwater “pump and treat”
                            approaches were being overused and the results were poor in terms of
                            effectiveness and cost. Recent followup indicates that the Army alone has
                            identified about $70 million in cost avoidance by modifying its approach

                                                  12
Semiannual Report to the Congress                                Special Emphasis Area--Information Assurance




                               at 8 installations. We believe that even greater savings are possible
                               throughout DoD by reconsidering the widely used, but now outmoded,
                               pump and treat methodology. In September 1999, we reported that the
                               Environmental Security Technology Certification Program was achieving
                               worthwhile breakthroughs in adopting new technologies for military site
                               cleanup requirements. We made several recommendations for further
                               program enhancements, and DoD formed an Environmental Security
                               Technology Implementation Committee to implement them.

                               Although cleanup of contamination caused by chemicals, fuels, paints,
                               and solvents is the principal challenge at most active or closed defense
                               sites, dealing with residue created by live firing for testing or training is a
                               continuing major concern that has received much less attention. In August
                               1999, we reported that lead contamination was a problem in hundreds of
                               National Guard and Reserve facilities with indoor small arms ranges. Half
                               a dozen audit reports since 1994 identified the lack of a coherent program
                               for dealing with munitions scrap on the extensive DoD outdoor testing
                                                                     and training ranges. The issue is
                                                                     acute because of the safety hazards
                                                                     posed by unexploded ordnance, the
                                                                     possibility of dangerous usable
                                                                     munitions falling into the wrong
                                                                     h a n d s, a n d t h e e n v i ro n m e n t a l
                                                                     contamination caused by range
                                                                     res idue , which may include
                                                                     numerous toxic substances such as
                                                                     depleted uranium and chromium.

                                                                          The results of the most recent OIG,
                                                                          DoD, review, reported in August
                                                                          2000, were disappointing because
                                                                          t h e De p a r t m en t m ad e l i m i t e d
       Destroyed targets stockpiled on a range at Eglin Air Force Base    progress in carrying out numerous
                                                                          agreed-upon recommendations from
                                  our September 1997 report. At the installation level, commanders were
                                  making reasonable efforts to collect and segregate potentially hazardous
                                  material, but overall DoD guidance and funding to complete disposal
                                  were still lacking. The full cost of cleaning up the ranges has not yet been
                                  identified by the Department.

                               In September 2000, the Air Force Audit Agency reported on that Service’s
                               Environmental Restoration Program. The auditors concluded that
                               managers were effectively identifying potentially contaminated sites, but

                                                        13
Special Emphasis Area--Information Assurance                          Semiannual Report to the Congress




                            improvements were needed in reporting cost estimates and eliminating
                            administrative inefficiencies. Similar improvements are probably possible
                            throughout DoD.

COMPLIANCE                  The DoD must comply with a wide range of legal and regulatory
                            environmental requirements, most of which apply to several facets of the
                            handling of hazardous substances, not just cleanup after pollution or
                            contamination occurs. Likewise, contractors hired by DoD to treat,
                            transport, collect, dispose of, and otherwise handle environmentally
                            sensitive substances must comply with both environmental laws and
                            regulations and the requirements related to Government contracting, such
                            as the False Claims Act. Because the handling of sensitive substances
                            takes place at thousands of locations, and contractor self-certification is a
                            common practice, this is an area where a significant risk of fraud exists.

                            All four Defense Criminal Investigative Organizations have been active
                            over the past several years in combating the fraud perpetuated primarily
                            by contractors involved in waste cleanup and disposal. As discussed
                            regularly in our semiannual reports, typical criminal schemes in this area
                            have involved false certifications that work such as removal of hazardous
                            waste or repair of storage facilities has been completed, illegal dumping
                            and the use of improperly trained and equipped workers.

                            To prevent fraud and achieve better program results, environmental
                            contract management needs improvement. For example, in June 2000 we
                            reported that contractors were not providing adequate waste management
                            and removal services at 10 of 14 U.S. military installations in Europe.
                            Although there were numerous indications of poor performance,
                            managers failed to take corrective action. As a result, those 10 bases had
                            an increased risk of safety and environmental compliance violations,
                            criminal and civil liability, and friction with host countries.

“A somewhat different type of...compliance     A somewhat different type of growing compliance
issue...is the rapid growth of foreign         issue overseas is the rapid growth of foreign
government environmental laws and              government environmental laws and regulations. In
regulations.”                                  September 1999, we reported that the Army environ-
                                               mental program in Germany was facing a serious
                            challenge. The 1993 amendment to the Status Of Forces Agreement
                            expanded Army environmental compliance obligations. As a result,
                            threats of actions by local authorities against Army officials were
                            increasing. The Army had not, however, assessed the 1993 changes,
                            developed a strategy dealing with them, and provided guidance to
                            commanders and managers.

                                                  14
Semiannual Report to the Congress                         Special Emphasis Area--Information Assurance




PREVENTION                  The best way to avoid excessive costs for handling and cleaning up
                            environmentally sensitive substances is to eliminate or minimize their use.
                            Reducing the use of toxic substances makes sense both to enable better
                            compliance with environmental standards and to reduce the life-cycle
                            costs of military equipment and systems. Numerous audit reports have
                            indicated that more needs to be done to motivate the acquisition com-
                            munity to minimize the use of toxic materials when designing and
                            procuring weapon systems, munitions, and other materiel. In May 2000,
                            we reported progress in terms of demonstrable effort in nine acquisition
                            programs to avoid hazardous materials; however, the cost of demili-
                            tarizing and disposing of the hazardous materials in the systems were not
                            factored into life-cycle cost estimates. Full assessment and disclosure of
                            the handling and disposal costs for hazardous materials would generate
                            additional support for minimalization efforts, including investing more
                            during acquisition if the eventual return on investment warranted.

                            Other audits have indicated that most of the specific DoD pollution
                            prevention projects are well managed. For example, we reviewed 22 of
                            265 pollution prevention projects initiated in fiscal years 1996 through
                            1998. We reported in September 1999 that all 22 projects were sound
                            investments. Those projects cost $5.8 million and would generate a one-
                            time savings of $27.5 million, with annual recurring savings of about
                            $4.4 million.

OTHER CONCERNS              Although oversight coverage of the issue has been very limited, it is clear
                            that DoD faces increasing challenges in terms of constraints on testing
                            and training because of growing civilian populations near once remote
                            military installations. Likewise, the Endangered Species Act poses
                            challenges at many bases. Similarly, the Navy must take seriously the
                            recent allegations that sonar can harm marine mammals, in order not to
                            alienate public support for military presence.

SUMMARY                     The DoD must continue to give its environmental objectives high priority,
                            but consistently seek ways to contain cost, improve effectiveness, and
                            avoid impediments to readiness. We intend to maintain a robust oversight
                            effort in this area.




                                                  15
Special Emphasis Area--Information Assurance                        Semiannual Report to the Congress




                                   This page left blank intentionally




                                                 16
Semiannual Report to the Congress                                                           Chapter Two




CHAPTER TWO - SIGNIFICANT ACTIVITIES

INTRODUCTION                This chapter summarizes the significant activities of the OIG, DoD,
                            components and their work with other members of the DoD oversight
                            community.

CRIMINAL                    The four Defense Criminal Investigative Organizations (DCIOs) continue
INVESTIGATIONS              to combat crime affecting the DoD and the Military Departments. The
                            Defense Criminal Investigative Service (DCIS), the criminal investigative
                            arm of the OIG, DoD, focuses the bulk of its 321 civilian criminal investi-
                            gators on the investigation of procurement fraud by Defense contractors
                            and health care fraud by health care providers. The Army Criminal
                            Investigation Command (CIDC), the Naval Criminal Investigative
                            Service (NCIS) and the Air Force Office of Special Investigations
                            (AFOSI) also investigate procurement fraud, but focus the majority of
                            their resources on other crimes against persons and property affecting
                            their respective Military Departments. The AFOSI and NCIS also conduct
                            counterintelligence investigations and operations. This section focuses on
                            the procurement, health care and other major fraud investigations
                            accomplished by the DCIOs.

                            Figure 1 (page 18) displays the investigative results achieved by the four
                            investigative organizations during the period in areas of procurement and
                            health care fraud.

                            The following are examples of some of the more significant fraud cases
                            occurring during this semiannual period. It should be noted that in
                            virtually all instances, the Defense Contract Audit Agency (DCAA)
                            played a critical role in supplying needed audit support.

 Product                    The introduction of counterfeit material and other forms of unauthorized
 Substitution               substitution of products in the DoD procurement system has been and
                            continues to be our highest priority for deterrence, investigation, and
                            prosecution. Product substitution investigations comprise a major part of
                            the DCIO fraud investigation inventory. An area of increased emphasis is
                            readiness enhancement through vigorous detection and investigation of
                            defective or substandard products that involve either safety of flight issues
                            or have a critical application to our National Defense. The following are
                            examples of product substitution cases:

                                    •   An investigation of a manufacturer of chemical biological suits
                                        worn by the military, revealed that the garments failed quality

                                                   17
Chapter Two                                                                 Semiannual Report to the Congress

                        DEFENSE CRIMINAL INVESTIGATIVE ORGANIZATIONS CASE RESULTS
                                                   Procurement Fraud
                                                  and Major Health Care     Other Criminal
                                                   Fraud Investigative       Investigative
                                                      Case Results              Results             Total


LITIGATION RESULTS
    Indictments - DoJ                                               90                144               234
    Convictions - DoJ                                               78                130               208
    Indictments - State/Local/Foreign                                1                 28                   29
    Convictions - State/Local/Foreign                                5                 49                   54


MONETARY OUTCOMES
    DoJ Only                                            $143,283,366           $53,075,245      $196,358,611
    DoD Administrative Recoveries                            39,564,331          7,100,478        46,664,809
    DoD Investigative Recoveries                                124,811          2,096,418         2,221,229
    State/Local/Foreign                                         20,350           8,419,086         8,439,436
    Total Monetary Outcomes                             $182,992,858           $70,691,227      $253,684,085


SUSPENSIONS AND DEBARMENTS RESULTING FROM INVESTIGATIONS
    Suspensions
    Individual                                                      41
    Companies                                                       15
    Debarments
    Individual                                                      21
    Companies                                                       14

                                                     Figure 1


                                            testing and were intentionally defectively produced. The
                                            company manufactured various military uniforms and other
                                            types of military apparel under five contracts awarded by the
                                            Defense Supply Center, Philadelphia, Pennsylvania. As a result
                                            of this investigation, six individuals and two entities pled guilty
                                            to conspiring to defraud the Government and were sentenced.

                                        •   A large tire and rubber company agreed to pay $453,000 in civil
                                            restitution and deliver 5,000 alternative track shoe assemblies to
                                            the U.S. Army to settle allegations that the company manu-
                                            factured T-107 track shoe assemblies that did not conform to
                                            contractual specifications. This investigation was initiated after
                                            an anonymous caller contacted the DoD Hotline to report pro-
                                            duction deficiencies involving the track shoe assemblies, which
                                            are used on the M-88 armored recovery vehicle.


                                                        18
Semiannual Report to the Congress                                                            Chapter Two




                                    •   The investigation of a California company disclosed that it
                                        improperly heat-treated and falsified quality testing on parts
                                        used on numerous DoD aircraft, for the NASA Space Shuttle
                                        and Space Station Programs, as well as on commercial aircraft.
                                        Following a 2-week trial, the company and its corporate officers
                                        were convicted of conspiracy to make false statements and six
                                        counts of making false statements to the DoD.

                                                    •    A Washington company agreed to pay
                                                         $42,395,000 in civil restitution to settle two
                                                         lawsuits that alleged that they placed defective
                                                         flight-critical transmission gears into CH-47D
                                                         Chinook helicopters. The lawsuits were filed by
                                                         a former employee under the qui tam provisions
                                                         of the False Claims Act, and were subsequently
                                                         enjoined by the U.S. Government. Subcontrac-
                                        tors were used to manufacture gears for the Chinook helicopters.
                                        The transmission gears supplied by these subcontractors were
                                        suspected of having caused several in-flight incidents, accidents,
                                        and crashes resulting in injuries, at least five deaths, and the
                                        destruction of several helicopters. Due to additional defects
                                        found in the gears, the Army partially grounded the Chinook
                                        fleet in January 2000.

 Product                    This category concerns fraudulent activities of those who abuse DoD
 Substitution               environmental programs and contracts, with regard to the delivery,
 (Environmental)            removal, transport, and disposal of hazardous material and hazardous
                            waste from DoD installations. The following are examples of some of the
                            more significant environmental cases occurring during this semiannual
                            period.

                                    •   A Missouri waste management company entered a guilty plea to
                                        one count of violating permit specifications for waste disposal
                                        under Federal waste disposal regulations. Additionally, the
                                        company paid a $230,850 civil penalty to the State of Missouri
                                        to settle violations of the Missouri Hazardous Waste Manage-
                                        ment Law, Missouri Solid Waste Law, and Missouri Clean Water
                                        Law, for illegally disposing of DoD waste products.

                                    •   An environmental services company was subcontracted to
                                        remove underground storage tanks and the associated
                                        petroleum-impacted wastewater from various military facilities.
                                        The president of the company arranged for a trucking company
                                                    19
Chapter Two                                              Semiannual Report to the Congress




                             to transport and illegally dispose of the wastewater into under-
                             ground wells, thereby endangering drinking water resources.
                             The parties were found guilty of conspiring to inject liquid waste
                             into a Class II disposal well without a permit, transporting
                             hazardous waste without a manifest, mail fraud, wire fraud and
                             interfering with the lawful function of the Environmental
                             Protection Agency (EPA) or the DoD. The owner of the trucking
                             company was also found guilty of violating the Clean Water Act,
                             Resources Conservation and Recovery Act, and making false
                             statements to Government officials.

                         •   The president and owner of two metal finishing companies pled
                             guilty to violating the requirements of conditions of permits
                             issued by the State of Ohio and requirements imposed in a
                             pretreatment program. They were found to have dumped
                             hazardous waste, which was manufactured during work on DoD
                             contracts, into the municipal sewage treatment system of
                             Columbus, Ohio.

    Medical Fraud   The DoD Military Health Services System (MHSS) is the health care
                    program administered by the Assistant Secretary of Defense (Health
                    Affairs), which provides health care to active duty and retired military
                    personnel, their dependents and survivors. Two distinct but related
                    missions of the MHSS are the “readiness mission,” which provides
                    medical services and support to the Armed Forces during military
                    operations, and the “benefit mission,” which provides medical services
                    and support to members of the Armed Forces, their dependents and others
                    entitled to DoD medical care. The missions are accomplished through
                    direct care provided by a military medical treatment facility and civilian
                    care provided through TRICARE.

                    Our investigations found an increase in fraud in the delivery of health care
                    services. The following are examples of some of the more significant
                    health care fraud investigations occurring during this semiannual period.

                         •   A provider of nutritional counseling and weight loss
                             management services was found to have submitted numerous
                             fraudulent health care claims to TRICARE, Medicare, and
                             Trigon Healthcare, Incorporated. The claims misrepresented
                             provider information and falsified the services provided, which
                             otherwise would not have been reimbursed.




                                      20
 Semiannual Report to the Congress                                                           Chapter Two




“...a retired U.S. Navy veteran conspired               •  The investigation of an ambulance service
with physicians...in the Republic of the                   disclosed that it submitted false claims to
Philippines to submit false claims to the                  TRICARE, Medicare, and Medicaid for
DoD TRICARE Program.                                       ambulance transport of patients who were
                                                           purported to be bedridden or bed-confined
                                     when, in fact, they were not. The paramedics and emergency
                                     medical technicians at the company were instructed to omit
                                     certain words from their transport records that would accurately
                                     describe the patient’s physical condition at the time of transport.

                                •    An investigation disclosed that a retired U.S. Navy veteran
                                     conspired with physicians and other retired veterans in the
                                     Republic of the Philippines to submit false claims to the DoD
                                     TRICARE Program. The claims were submitted for medical
                                     services that were never rendered. The claims were received by
                                     Wisconsin Physicians Service, Madison, Wisconsin, a fiscal
                                     intermediary for the TRICARE program. Portions of the money
                                     paid to the physicians for these false claims were returned to the
                                     retired veterans as payment for their participation in the scheme.

                                •    An investigation disclosed that a dialysis laboratory services
                                     company defrauded TRICARE, Medicare, and Medicaid by
                                     double billing and billing for laboratory services that were not
                                     medically necessary.

                                •    A Fort Lauderdale, Florida, company defrauded TRICARE,
                                     Medicare, and Medicaid by billing for laboratory services that
                                     were not medically necessary and “unbundling” automated
                                     blood chemistry tests. Unbundling is a fraudulent billing scheme
                                     that involves separately billing the component parts of a proce-
                                     dure instead of billing only the single procedure code, which
                                     represents the entire comprehensive procedure.

 Financial Crimes          The investigation of financial crimes focuses on cases where financial
                           gain is a primary motivation. These crimes are often accomplished by
                           defrauding or abusing pay systems, such as the systems at the Defense
                           Finance and Accounting Service (DFAS). The following are examples of
                           some of the more significant financial fraud cases occurring during this
                           semiannual period.

                                •    A general supply specialist at the Defense Logistics Information
                                     Service, Defense Logistics Agency (DLA), Battle Creek,
                                     Michigan, was determined to have submitted a claim for reim-

                                                   21
Chapter Two                                                        Semiannual Report to the Congress




                                    bursement of moving expenses. He falsely claimed reimburse-
                                    ment for misrepresentations he made that his family had
                                    accompanied him on various dates, and that he was paying rent
                                    and breach of lease payments on an apartment, when none of
                                    these claims were true.

                                •An investigation disclosed that the daughter of a former U.S.
                                 Marine Corps veteran continued to receive Federal retirement
                                 benefits destined for her father for 8 years after his death. The
                                 funds were electronically transmitted by DFAS into a bank
                                 account established as a trust for her father, which was held
                                 jointly by the daughter. By intentionally failing to notify the
                                                      Government of her father’s death, she
“A $15.5 million settlement was reached               illegally received, and converted to her
with a Florida company. This brought                  own use, over $100,000.
closure to a lawsuit, which alleged that
the Federal Government was                        • A $15.5 million settlement was reached
overcharged for books....”                            with a Florida company. This brought
                                                          closure to a lawsuit, which alleged that the
                                    Federal Government was overcharged for books purchased from
                                    a nationwide book wholesaler and distributor who had contracts
                                    with the DoD to provide books for use overseas in DoD
                                    libraries, schools, and for DoD educational supplies. The
                                    company also supplied books to other Federal agencies, State
                                    schools and public libraries.

                                •   A $4.25 million settlement agreement was reached with a large
                                    Ohio corporation, which admitted it had improperly used
                                    Foreign Military Sales (FMS) funds while performing on an
                                    FMS contract with the Arab Republic of Egypt to upgrade four
                                    sonar systems used by the Egyptian military. Under the FMS
                                    program, which is administered by the Defense Security Assis-
                                    tance Agency, a prime contractor cannot hire unapproved
                                    foreign companies to work on FMS contracts. An investigation
                                    determined that the Ohio corporation paid another U.S.
                                    company over $3.2 million for work purportedly performed on
                                    the FMS contract, when the actual work was performed by a
                                    foreign company. The U.S. company only handled the
                                    administrative aspects of the subcontract, while the foreign
                                    company’s engineers performed all the actual sonar work. The
                                    U.S. company, which designed, engineered, and constructed
                                    industrial cement manufacturing plants, had no expertise in
                                    sonar.

                                                22
Semiannual Report to the Congress                                                            Chapter Two




                                    •   An investigation disclosed that an individual submitted invoices
                                        to a Minnesota-based lender, TransCentral, Incorporated, for
                                        cash advances that the Air Force had already made payment on
                                        or for false invoices on which the Air Force would never make
                                        payment. Eleven transactions were completed and monies were
                                        received totaling $1,080,194.

                                    •
                                  An investigation disclosed that a DFAS employee fraudulently
                                  issued 53 U.S. Treasury checks totaling $187,000 from the
                                  DFAS facility in Cleveland, Ohio. The checks were issued to
                                  various individuals, including several of his relatives. During a
                                  search of his Government computer, images of child porno-
                                  graphy were found. The employee pled guilty to possession of
“A Milford, New Hampshire, company                    pornographic images of children and mail
entered into a $2.5 million civil                     fraud.
settlement with the Government...
Various costs claimed [by the                            •   A Milford, New Hampshire, company
company] were alleged to be false.”                          entered into a $2.5 million civil settlement
                                                             with the Government to settle claims arising
                                        out of an investigation by the DoD and the Department of
                                        Justice. The DoD contractor manufactures antenna couplers and
                                        test sets used to test defense systems on combat aircraft. The
                                        investigation disclosed that the company negotiated several
                                        delivery orders for two Navy contracts. Various costs claimed on
                                        those delivery orders were alleged to be false.

 Bribery and                Since the passage of the Anti-Kickback Act of 1986, the number of
 Kickbacks                  subcontractor kickback investigations in the DCIS inventory has been
                            fairly consistent. The use of informants and undercover operations has
                            been particularly successful in this area and has uncovered culpable DoD
                            and contractor employees. The following are examples of some of the
                            more significant bribery and kickback cases occurring during this semi-
                            annual period:

                                    •   The owner of a Massachusetts machine shop that sells electro-
                                        mechanical components to defense contractors, conspired to pay
                                        kickbacks to employees of two larger defense contractors in
                                        exchange for favorable consideration in the award of sub-
                                        contracts. The kickback payments were disguised to allow him
                                        to claim some or all of the kickbacks as business deductions or
                                        as personal expenses on his corporate tax return. The owner pled
                                        guilty and was sentenced for conspiracy and violations of the
                                        Anti-Kickback Act.

                                                    23
Chapter Two                                     Semiannual Report to the Congress




              •   A $3,692,804 settlement agreement was reached with an
                  Alabama ship repair company as a result of a 3-year undercover
                  investigation into fraud and corruption within the Maritime
                  Industry. In exchange for the kickback payments, the Alabama
                  company received numerous subcontracts from a prime
                  contractor who held contracts with the Navy Military Sealift
                  Command valued in excess of $200 million. This settlement
                  agreement follows the filing of criminal informations and guilty
                  pleas of multiple employees on charges of soliciting and
                  accepting kickbacks.

              •   A former project engineer for the Directorate of Public Works
                  and Logistics Division, Fort Bliss Army Base, El Paso, Texas,
                  was sentenced for bribery and submitting false claims against
                  the United States. On numerous occasions, the project engineer
                  demanded and accepted cash and checks from a Government
                  contractor in return for being influenced in the performance of
                  his official duties. He also falsified delivery orders with the
                  contractor by increasing the value of the delivery orders and
                  allowing the submission of invoices that were inflated by over
                  $100,000. The project engineer expected to be paid a portion of
                  the inflated billings after the contractor received payment from
                  DFAS.

              •   Several owners of various trucking and construction companies
                  and messenger services were sentenced for conspiring to
                  defraud the Internal Revenue Service through corporate tax
                  evasion. These businessmen conspired with the former president
                  of a DoD subcontractor to cash corporate checks through their
                  corporate bank accounts. The DoD subcontractor provided raw
                  materials, such as aluminum and titanium, to prime DoD
                  contractors. The businessmen returned the cash to the former
                  president, who in turn used the cash to pay kickbacks to secure
                  subcontracts for his business from various individuals who
                  contracted with the DoD.

              •   The president of a DoD subcontractor in New York was
                  sentenced for paying kickbacks. This individual was provided
                  with pricing information from a DoD prime contractor that
                  enabled him to be the low bidder as a subcontractor on
                  numerous DoD contracts. In return he paid kickbacks in the
                  amount of 5 percent of the subcontract value for the pricing
                  information.

                              24
Semiannual Report to the Congress                                                        Chapter Two




HOTLINE                    During this reporting period, the Hotline
                           received 6,032 telephone calls and letters
                           resulting in the initiation of 1,531 cases.
                           During the same period, the Hotline closed
                           1,080 cases. The Hotline responded to 134
                           requests for posters and other marketing
                           material from DoD activities and DoD
                           contractors in our continuing effort to
                           identify fraud and waste within the DoD.
                           Since 1982, over $420 million has been
                           recovered as a direct result of inquiries
                           initiated in response to information provided
                           to the Hotline.

Significant Hotline        A joint investigation was conducted by the DCIS and the CIDC as a result
Complaints                 of a Hotline complaint. The allegations concerned were that the
                           Surprenant Cable Corporation sold certified cables to contractors
                           constructing Government vessels. The cables did not meet the specifi-
                           cations for watertightness. This matter was declined for criminal
                           prosecution, however, it was accepted for civil prosecution. Surprenant
                           Cable Corporation agreed to pay the U.S. Government the principal sum
                           of $120,000 in full satisfaction of the Government civil claim against the
                           company.

ADMINISTRATIVE             The OIG, DoD, Departmental Inquiries Office conducts investigations and
INVESTIGATIONS             also performs oversight of administrative investigations conducted by the
                           Military Departments. Those investigations pertain to:

                                •   Allegations of reprisal against military members, Defense
                                    contractor employees and nonappropriated fund employees.

                                •   Allegations that military members were referred for mental
                                    health evaluations without being afforded the rights prescribed
                                    in the DoD Directive and Instruction pertaining to mental health
                                    evaluations of members of the armed forces.

                                •   Noncriminal allegations against senior military and civilian
                                    officials

Whistleblower              During the reporting period, the Special Inquiries Directorate and the
Reprisal Activity          Military Department Inspectors General received 260 complaints of
                           whistleblower reprisal. We closed 252 cases. Of the 252 cases closed, 172


                                                 25
Chapter Two                                                      Semiannual Report to the Congress




                        were closed after preliminary analysis determined further investigation
                        was not warranted, and 80 were closed after full investigation.

                        Of the cases closed after full investigation, 15 (or 19 percent) contained
                        one or more substantiated allegations of whistleblower reprisal.

                        Figures 2 and 3 (page 27) show the types and distribution of whistle-
                        blower reprisal cases as of September 30, 2000.

 Referrals for Mental   Twenty cases closed during the reporting period contained allegations of
 Health Evaluations     improper referrals for mental health evaluations. We did not substantiate
                        that any mental health referrals were used to reprise against Service
                        members for whistleblowing. However, we concluded that in 9 of the 20
                        cases, commanders failed to follow the proper procedures for referring a
                        Service member for a mental health evaluation under DoD Directive
                        6490.1, “Mental Health Evaluations of Members of the Armed Forces.”

 Examples of            An Army National Guard colonel received a letter of reprimand and an
 Substantiated          unfavorable Officer Evaluation Report in reprisal for making protected
 Whistleblower          communications to his chain of command and Inspectors General. The
 Reprisal Cases         colonel alleged mismanagement, fraud and reprisal by senior officials to
                        his chain of command and Inspectors General. The colonel also provided
                        testimony to investigators during an Inspector General, Department of the
                        Army, investigation. Based on the findings in the Army investigation, the
                        colonel was returned to his position.

                        A non-appropriated fund employee at a Marine Corps base was termi-
                        nated from employment in reprisal for making protected disclosures. The
                        employee expressed his opinion to the Commanding General that the
                        decision to open a new club on the base was a bad business decision. As a
                        result of the investigation, the employee was returned to work.

 Senior Official        Figures 4 and 5 (page 28) show results of activity on senior official cases
 Inquiries              during the period. On September 30, 2000, there were 253 ongoing
                        investigations into senior official misconduct throughout the Department,
                        up slightly since April 1, 2000, when we reported 235 open investigations.
                        Over the past 6 months, we closed 152 senior official cases, of which 39
                        (26 percent) contained substantiated allegations.

 Examples of Cases      In a case that attracted significant media and congressional interest, we
 Involving Senior       substantiated allegations that senior DoD officials violated the Privacy
 Officials              Act by releasing information from the security files of a DoD employee.
                        We concluded that the DoD officials, by virtue of their positions,

                                              26
Semiannual Report to the Congress                                                                               Chapter Two




                                 Military Whistleblower Reprisal Cases
                                           Open as of September 30, 2000

                                                                132
                       140
                       120
                       100
                                                  74
                        80          65

                        60
                        40                                                     22

                        20                                                                     4


                         0
                              IG, DoD         Army           USAF           Navy          USMC

                                               Total Open Cases: 297

               This graph provides a breakdown of Military whistleblower reprisal cases by the organization
               conducting the investigative work. All cases completed by other organizations are submitted to
               the Special Inquiries Directorate, OIG, DoD, for review and approval.



                                                           Figure 2




                                         W histleblower Reprisal Cases
                                          By Category Of Employee
                                             Open as of September 30, 2000



                                                                                    Contractor
                                                                                       1%
                                Military
                                 95%
                                                                                        NAF
                                                                                        4%



                                                                           Total Open Cases: 312




                                                            Figure 3


                                                                27
Chapter Two                                                                          Semiannual Report to the Congress




                                                  Program Integrity
                                               Senior Official Inquiries
                                              Open as of September 30, 2000

                  160          146
                  140
                  120
                  100
                   80
                   60                                                                            32
                                                           33
                   40                         18                                       22
                   20                                                     2
                    0
                             Army           Navy          USAF        USMC         Defense      OIG
                                                                                   Agencies   Program
              This graph provides a breakdown of senior official                              Integrity
              cases by the organization conducting the inquiry.
              Inquiries completed by other organizations are
              submitted to the Program Integrity Directorate,
              OIG, DoD, for review.
                                                                        Total Open Cases: 253


                                                          Figure 4




                 Nature of Substantiated Allegations Against Senior Officials
                                   During 2nd Half FY 00

                                          Deceptive                Other
                  isuse of Gov’t                                 Misconduct
                                         Statements
                    Property/                                       16%
                                             5%
                   Resources
                      27%                                                                      Abuse of
                                                                                              Authority/
                                                                                              Favoritism
                                                                                                 25%




                                                                      Sexual Harassment/
                                     Improper Personnel                   Improper
                                          Action                         Relationship
                                           16%                               11%



                              Cases Closed: 152                        Substantiated: 39

                                                          Figure 5


                                                          28
Semiannual Report to the Congress                                                         Chapter Two




                            reasonably should have known that the release was improper at the time it
                            was made and that they failed to follow procedures they had established
                            for releases of certain information. The officials were subsequently
                            cautioned by the Secretary of Defense.

                            In another investigation, we substantiated allegations that a senior DoD
                            official redeemed frequent flyer miles that were the property of the
                            Government to purchase airline tickets for his personal use. In this case,
                            the senior official established frequent flyer accounts where he
                            commingled mileage credits earned on official travel with mileage credits
                            that he obtained from personal travel. Because the senior official was
                            unable to identify credits earned on personal travel, all credits in the
                            account were considered property of the Government under applicable
                            DoD travel and ethics regulations. Further, we concluded that the senior
                            official was not candid and forthright in his statements to investigators
                            concerning his use of frequent flyer mileage credits. The results of the
                            investigation were provided to cognizant management officials for
                            consideration of corrective action.

CRIMINAL                    The Office of Criminal Investigative Policy and Oversight (CIPO)
INVESTIGATIVE               published “Evaluation of the Implementation of Department of Defense
POLICY AND                  Instruction 5505.7, ‘Titling and Indexing of Subjects of Criminal
OVERSIGHT                   Investigations in the DoD.’” The report assessed the level of compliance
                            by the Defense Criminal Investigative Organizations with the instruction
                            that establishes the standards by which subjects are entered in the Defense
                            Clearance and Investigations Index. The evaluation found substantial
                            compliance with the instruction.

                            The CIPO reviewed complaints of IG investigator impropriety at two
                            Defense intelligence agencies. Exhaustive investigations in each case
                            failed to establish that either complaint had merit. These evaluations did
                            much to enhance the credibility of the offices involved and verified that
                            the investigators complied with internal and departmental regulations and
                            followed acceptable investigative standards and practices.

                            The CIPO also reviewed a criminal investigation conducted by a military
                            criminal investigative organization and concluded that the decision to
                            initiate an investigation was contrary to DoD and Service guidance on
                            investigating consensual adult sexual misconduct. The review of this
                            single incident resulted in recommendations that the investigative organi-
                            zation reinforce the provisions of the regulatory guidance regarding these
                            crimes and that it reconsider the titling and indexing decision regarding
                            the subject of the investigation.

                                                  29
Chapter Two                                             Semiannual Report to the Congress




 Voluntary    The Voluntary Disclosure Program encourages contractors to disclose
 Disclosure   potential criminal or civil fraud that may affect their contractual relation-
 Program      ship with the DoD or the contractor’s responsibility under Federal
              Acquisition Regulations.

              The Voluntary Disclosure Program has received 419 disclosures since its
              inception in 1986. The Government recouped $413.7 million in criminal,
              civil, and administrative recoveries as a result of the Program. During the
              reporting period, nine new disclosures were received, six disclosures were
              accepted, with the other three pending, and the Government received $8.9
              million in recoveries. The following are examples of voluntary dis-
              closures that resulted in monetary payments and contract adjustments
              during this reporting period.

                   •   A contractor reported that it had mischarged the DoD $250,000
                       in connection with a contract for the installation of internet
                       equipment. Investigation and auditing work disclosed that
                       damages were far in excess of the original estimate. The
                       Government and the contractor settled the matter for $4.5
                       million.

                   •   In another matter, a contractor settled with the Government for
                       $1.1 million. This settlement represented losses to the Govern-
                       ment attributed to the failure to test equipment intended for use
                       in electronic jamming devices. The company fired 17 employees
                       responsible for the misconduct.

                   •   A contractor who failed to properly test portable fuel storage
                       tanks supplied to the Marine Corps settled a voluntary disclosure
                       matter for a total value of $1,255,000. As a part of the settle-
                       ment, the contractor agreed to provide replacement equipment,
                       valued at $520,000, at no cost to the Government. The balance
                       of the settlement, $735,000, was paid in cash.

AUDITING      The OIG, DoD, and Military Department central audit organizations
              issued 224 reports during the reporting period, identifying nearly
              $1.5 billion in quantifiable monetary benefits and assisting the
              Department’s efforts to address the high risk areas discussed in Chapter
              One. Appendix A lists internal audit reports by major subject area.
              Appendices B and C list OIG, DoD, reports with potential monetary
              benefits and summarize internal audit followup activity, respectively.




                                    30
Semiannual Report to the Congress                                                            Chapter Two




                            The DCAA issued 26,598 contract audit reports and questioned over
                            $1 billion in costs, as summarized in Appendix D.

 Auditor                    The Advisory Council on Government Auditing Standards issued a
 Independence               Preliminary Views document in April 2000, concerning possible changes
                            to the existing standard on auditor independence and related reporting
                            standards for financial and performance audits. In a joint reply, the
                            Deputy Inspector General and the heads of the DoD internal audit
                            agencies stated that the proposed revisions were unnecessary and could
                            impair the effectiveness of internal auditing in the Department. The DoD
                            internal audit community has worked out an efficient division of labor
                            across the spectrum of DoD functional areas between the OIG, DoD, and
                            the Military Department audit services. Although the proposed changes
                            may be intended to address independence issues related primarily to states
                            and Federal agencies without statutory IGs, they would have unintended
                            adverse consequences in the DoD.

                            If the proposed changes were enacted, the Military Department audit
                            organizations would have to qualify all audit results and could not issue
                            opinions on financial statements. Undermining the credibility of three-
                            fourths of the Department’s internal auditors to comply with questionably
                            necessary and inflexible provisions in revised audit standards would be
                            severely counterproductive. We are continuing to work with the Advisory
                            Council and the Federal audit community to resolve this problem.

 DCAA Customer              The specialized role of the DCAA is to provide financial advice to DoD
 Feedback                   contracting officers. Our semiannual report for the period ended
                            September 30, 1999, discussed how DCAA was working to improve
                            coordination with DoD buying commands and contract administration
                            offices, develop risk assessment methodologies, and participate construc-
                            tively in proactive efforts like the Single Process Initiative. The success of
                            those efforts is indicated by the continued impressive amounts of costs
                            questioned by DCAA auditors, as well as the positive feedback from DoD
                            contracting officers.

                            The 1999 Biennial Review of Defense Agencies and DoD Field Activities
                            by the Office of the Secretary of Defense, completed in May 2000,
                            surveyed the degree of customer satisfaction with DCAA performance.
                            About 93 percent of 135 responses indicated overall satisfaction, which is
                            excellent in comparison with the 74 percent average for the survey.

 OIG, DoD,                  The Deputy Inspector General testified before the Senate Armed Services
 Testimony                  Committee on April 6, 2000, regarding DoD personnel security clearance

                                                  31
Chapter Two                                            Semiannual Report to the Congress




              investigations. He stressed the need for the Department to take aggressive
              action to recover from the Defense Security Service’s failed reinvention
              efforts and to improve the timeliness, quality, and responsiveness of the
              personnel security investigation program.

              On April 26, 2000, the Deputy Inspector General testified on Defense
              acquisition issues before the Subcommittee on Readiness and Manage-
              ment Support, Senate Armed Services Committee. He emphasized
              concerns related to prices in sole-source spare parts contracts, the impact
              of downsizing on the acquisition workforce, practices used in contracting
              for various types of services and the use of non-contractual agreements
              called Other Transactions.

              On May 9, 2000, the Assistant Inspector General for Auditing testified
              before the Subcommittee on Government Management and Information
              Technology, House Government Reform Committee, on Defense finan-
              cial management. He summarized the results of the DoD financial state-
              ment audits for fiscal year 1999 and emphasized the need to implement
              automated systems that could compile data in accordance with Federal
              audit standards. To accelerate the implementation of compliant systems,
              he recommended using the same management approach that was applied
              to the Year 2000 conversion challenge.

              The Assistant Inspector General for Auditing discussed duplication in the
              procurement of pharmaceuticals at a May 25, 2000, hearing of the Sub-
              committee on Oversight and Investigations, House Veterans Affairs
              Committee. He testified that the Departments of Defense and Veterans
              Affairs had made progress in implementing unified purchasing
              approaches for a few products, but opportunities remain to achieve
              significant savings by eliminating separate contracts for numerous other
              items.

              On May 26, 2000, the Assistant Inspector General for Auditing testified
              before the Senate Governmental Affairs Committee on export controls.
              He reiterated the recommendation by the IG community that the Congress
              enact a new Export Administration Act and the suggestions made by the
              Deputy Inspector General in March 2000 testimony to the Senate Armed
              Services Committee on S. 1712, the Export Administration Act of 1999.

              The Deputy Inspector General, Assistant Inspector General for Auditing,
              and Deputy Assistant Inspector General for Investigations testified on
              June 21, 2000, before the Subcommittee on National Security, Veterans
              Affairs and International Relations, House Government Reform Com-

                                    32
Semiannual Report to the Congress                                                         Chapter Two




                            mittee, on chemical protective equipment. The testimony covered the
                            problems with the maintainability and testing of protective masks and
                            poor inventory management of protective suits.

                            The Assistant Inspector General for Auditing testified on July 12, 2000,
                            on anthrax vaccine contracting before the Senate Armed Services Com-
                            mittee. He described the financial problems of the sole-source contractor
                            and the measures taken by the DoD to provide extraordinary relief on the
                            principal vaccine production contract. He recommended that the DoD
                            consider alternatives to private sector production of vaccines that have
                            limited commercial markets.

                            On July 20, 2000, the Assistant Inspector General for Auditing testified
                            before the Task Force on Defense and International Relations, House
                            Budget Committee, on Defense financial management. This testimony
                            was similar to the May 9, 2000, testimony and the discussion of financial
                            management issues in Chapter One, with emphasis on the $7.6 trillion of
                            accounting entries made in the vain attempt to formulate accurate DoD
                            financial statements for fiscal year 1999.

                            The Acting Inspector General testified at a September 20, 2000, hearing
                            by the Subcommittee on National Security, Veterans Affairs and
                            International Relations, House Government Reform Committee, on
                            Defense Security Service Oversight. He reiterated the recommendations
                            made in the April 2000 testimony on the Defense Personnel Security
                            Program and summarized the results of additional audit coverage through
                            September 2000. The April 2000 IG, DoD, prediction that the Defense
                            Security Service would average no more than 1,500 closed cases per day
                            in fiscal year 2000, despite goals of 2,300 to 2,500 closures per day, was
                            accurate. The closure rate exceeded 2,500 per day for the first time in
                            August 2000, which was a positive sign. Nevertheless, the backlog of
                            clearance requests remains a serious problem.

                            The full texts of the written testimony for these hearings are available at
                            www.dodig.osd.mil.

INTELLIGENCE                Figure 6, page 34, is a statistical summary of reports issued dealing with
REVIEW                      intelligence oversight. For information regarding specific work
                            performed, see the Classified Annex to this report.




                                                  33
Chapter Two                                                       Semiannual Report to the Congress




                                           Intelligence Oversight
                                                                              Defense
                    Organizations                 OIG, DoD   Military Depts   Agencies       Totals
    Intelligence Programs and Operations

    Operations and Support                               8           0            6           14
    Financial Management                                 0           3            1            4
    Acquisition and Contract Management                  1           1            9           11
    Computer Management/Information Technology           1           2            2            5
    Management Oversight                                 3           1           10           14
    Management/Criminal Investigations                   0           2            6            8
    Total                                               13           9           34           56

                                                  Figure 6




                                                   34
Semiannual Report to the Congress                                                                Appendix A


                         APPENDIX A*
  REPORTS ISSUED BY CENTRAL DOD INTERNAL AUDIT ORGANIZATIONS

   Excludes base level reports issued by the Air Force Audit Agency. Includes evaluation reports issued
   by the OIG, DoD.

   Copies of reports may be obtained from the appropriate issuing office by calling:

              OIG, DoD                                  Army Audit Agency
              (703) 604-8937                            (703) 681-9863

              Naval Audit Service                       Air Force Audit Agency
              (202) 433-5737                            (703) 696-8027



                       Summary of Number of Reports by Issue Area
                          April 1 through September 30, 2000

                                           OIG, DoD          Military Depts.                 Total
  Acquisition Oversight                       12                       10                         22
  Construction and Installation                3                        8                         11
  Support
  Environment                                  4                        9                         13
  Finance and Accounting                      33                       55                         88
  Health Care                                  1                        3                          4
  Information Technology                       8                       12                         20
  Intelligence**                              13                        9                         22
  Logistics                                    5                       23                         28
  Quality of Life                              0                       12                         12
  International Security                       1                        2                          3
  Other                                        2                        2                          4
  Total                                       82                     145                         227
  The OIG, DoD, also issued 7 reports on audit oversight reviews (D2000-6-004, D2000-6-005, D2000-6-006,
  D2000-6-007, D2000-6-008, D2000-6-009, and D2000-6-0010).


  * Fulfills requirements of 5 U.S.C., Appendix 3, Section 5(a)(6).
  ** For further information on intelligence-related reports, including those issued by other Defense
  agencies, refer to the classified annex to this report.



                                                    A-1
Appendix A                                                          Semiannual Report to the Congress


                                  D-2000-180 Commercial                99064023 C-17 Integrated
ACQUISITION                       Contract for Total Logistics         Product Team Participation
PROGRAM AND                       Support of Aircraft Auxiliary        (Phase II) (9/14/00)
                                  Power Units (8/31/00)
CONTRACTOR                                                             99064028 Sensor Fuzed
OVERSIGHT                         D-2000-187 The Low-Rate              Weapon Pre-Planned Product
                                  Initial Production Decision for      Improvement (4/10/00)
                                  the Joint Biological Point
(Includes issues relating to      Detection System (9/11/00)
acquisition management,                                                CONSTRUCTION
industrial base, contract         D-2000-188 Contract
administration and oversight,     Management for the National          AND INSTALLATION
and product quality assurance.)   Defense Center for Environ-          SUPPORT
                                  mental Excellence (9/14/00)
IG, DoD                           D-2000-192 Results of the            (Includes construction
D2000-115 Protection of the V-    Defense Logistics Agency             [including base realignment and
22 Osprey Against RF Weapons      Strategic Supplier Alliance for      closure (BRAC)-related
(CLASSIFIED) (4/24/00)            Catalog Items (9/26/00)              projects] and all activities
                                                                       related to maintenance and
D-2000-117 Independent            Army Audit Agency                    support of installations.)
Review of the Defense Finance     AA00-204 Foreign Military
and Accounting Service            Sales (4/ 6/00)                      IG, DoD
Competitive Sourcing Study of
the Depot Maintenance             AA00-235 Home Station                D-2000-155 Recovery of
Accounting Function (4/28/00)     Instrumented Training System         Commissary and Non-
                                  (5/5/00)                             appropriated Fund Real Property
D-2000-129 Air Force Contract                                          Investments at Defense Base
for Installation of Radios and    AA00-301 Reforming                   Realignment and Closure
Antennae (5/22/00)                Ammunition Procurement--             Installations (6/23/00)
                                  Phase III (6/28/00)
D2000-135 Protection of the                                            D-2000-164 Bulk Fuel Storage
M1A2 Tank 2000 Against RF         AA00-341 High Level                  and Delivery Systems Infra-
Weapons (CLASSIFIED)              Architecture (8/14/00)               structure for Yakima Training
(5/31/00)                                                              Center, Washington (7/20/00)
                                  Naval Audit Service
D-2000-149 Use of an Open                                              D-2000-175 Defense
Systems Approach for Weapon       N2000-0027 Independent               Information Systems Agency
Systems (6/14/00)                 Logistics Assessment Process         Right-Sizing Plan for Regional
                                  (6/27/00)                            Support Activities (8/15/00)
D2000-152 Protection of GPS
Against RF Weapons (6/19/00)      N2000-0040 Predator Short            Army Audit Agency
(CLASSIFIED)                      Range Assault Weapon:
                                  Acquisition Planning and             AA00-221 Base Realignment
D-2000-163 Ground Control         Contractor Merger (8/28/00)          and Closure 1995 Reserve
Approach-2000 Radar System                                             Component Enclave (4/14/00)
Test Plan and Test Results        Air Force Audit Agency
                                                                       AA00-302 Base Closure 1995
(7/20/00)                         97064003 F-22 Life-Cycle             Ammunition Transfer Point/
                                  Planning During Engineering          Holding Area at Pelham Range
D-2000-174 V-22 Osprey Joint      and Manufacturing
Advanced Vertical Aircraft                                             (6/26/00)
                                  Development (4/10/00)
(8/15/00)
                                                                       AA00-354 Base Closure
                                  99064007 International               Account Expenditures to
                                  Merchant Purchase Authoriza-         Relocate U.S. Army Aviation
                                  tion Card Usage (6/16/00)            and Troop Command (8/21/00)


                                                A-2
Semiannual Report to the Congress                                                          Appendix A


AA00-356 Base Closure 1995          AA00-332 Environmental             D-2000-126 Evaluation of
Construction Requirements for       Compliance Assessment System       Boeing and Rockwell Corpora-
the Alabama Army National           Program (7/24/00)                  tion Pension Assets Transfer
Guard Enclave (8/25/00)                                                (FOR OFFICIAL USE ONLY)
                                    AA00-346 Engineering Change        (5/19/00)
Air Force Audit Agency              Process for the Chemical Stock-
                                    pile Disposal Project (8/14/00)    D-2000-128 Defense Health
99052002 Facility Design
                                                                       Program Financial Reporting of
(9/13/00)                           AA00-360 Hazardous Materials       General Property, Plant, and
                                    Information System (8/30/00)       Equipment (5/22/00)
99052024 Selected Aspects of
Facility Management (5/24/00)       AA00-206 Contracts for             D-2000-133 Defense Logistics
                                    Chemical Agent Resistant           Agency FY 1999 Property,
99052025 Personal Property of
                                    Coating (4/3/00)                   Plant, and Equipment Financial
Tenant and Support Organiza-
tions at Kelly and McClellan Air                                       Reporting (5/30/00)
                                    Naval Audit Service
Force Bases (6/14/00)
                                    N2000-0021 Navy’s Drinking         D-2000-136 Reporting of
99052026 Privatizing Base           Water Systems (5/26/00)            Performance Measures in the
Utilities - Preliminary Economic                                       DoD Agency-Wide Financial
Analysis (5/3/00)                   Air Force Audit Agency             Statements (5/31/00)
                                    00052013 Weapons Range             D-2000-137 Accounting Entries
                                    Munitions Safety and Disposal      and Data Processing for the
ENVIRONMENT                         (6/26/00)                          FY 1999 Department of the
                                                                       Navy General Fund Financial
(Includes environmental issues      99052004 Installation Support      Statements (6/1/00)
related to cleanup, compliance,     of the Environmental Restora-
                                    tion Program (9/13/00)             D-2000-138 Procedures Used to
conservation, pollution
prevention, technology, safety                                         Test the Dollar Accuracy of
                                    99052007 Environmental,            Defense Logistics Agency
and health.)                        Safety, and Occupational Health    Inventory (6/1/00)
                                    Reviews (4/19/00)
IG, DoD                                                                D-2000-139 Controls Over the
D-2000-121 Hazardous                                                   Integrated Accounts Payable
Material Management for Major       FINANCE AND                        System (6/5/00)
Defense Systems (5/4/00)            ACCOUNTING                         D-2000-140 Compilation of the
D-2000-127 Program                                                     FY 1999 Department of the
Management of the Materials         (Includes finance and              Navy Working Capital Fund
and Processes Partnership for       accounting issues, including all   Financial Statements (6/7/00)
Pollution Prevention (5/22/00)      issues relating to the Chief
                                    Financial Officers (CFO) Act.)     D-2000-141 Reporting of the
D-2000-157 DoD Hazardous                                               FY 1999 Military Retirement
Waste Management and                                                   Health Benefits Liability in DoD
                                    IG, DoD
Removal Services in the U.S.                                           Financial Statements (6/9/00)
European Command (6/28/00)          D-2000-123 Disclosure of
                                    Differences in Deposits,           D-2000-143 Defense Finance
D-2000-170 Disposal of Range        Interagency Transfers, and         and Account Service Denver
Residue (8/4/00)                    Checks Issued in the FY 1999       Center’s Accounting Entries
                                    DoD Agency-Wide Financial          Used in Compiling the FY 1999
Army Audit Agency                   Statements (5/18/00)               Air Force General Fund
                                                                       Financial Statements (6/9/00)
AA00-310 Environmental
Remediation (7/11/00)




                                                  A-3
Appendix A                                                          Semiannual Report to the Congress


D-2000-144 Compiling and          D-2000-166 Compilation of the        D-2000-194 Demographic Data
Reporting FY 1999 Department      FY 1999 Financial Statements         Supporting the DoD Military
of the Navy Working Capital       for Air Force and Other Defense      Retirement Health Benefits
Fund Intragovernmental            Organizations Working Capital        Liability Estimate (9/29/00)
Transactions (6/9/00)             Funds (7/21/00)
                                                                       Army Audit Agency
D-2000-145 Management             D-2000-168 Data Supporting
                                                                       AA00-222 Internal Controls
Controls Over National Drug       the Environmental Liability
                                                                       Over Obligations, Disburse-
Control Program Funds             Line Item on the FY 1999 DoD
                                                                       ments, Orders Received, and
Managed Through the DoD           Financial Statements (7/27/00)
                                                                       Collections (4/25/00)
Central Transfer Account
(6/9/00)                          D-2000-172 Accuracy of the
                                                                       AA00-260 Internal Controls
                                  FY 1999 Additions, Deletions,
                                                                       Over Obligations, Disburse-
D-2000-146 Compiling and          and Modifications to the
                                                                       ments, Orders Received, and
Reporting FY 1999 Navy            Military Departments’ Real
                                                                       Collections (5/26/00)
General Fund Intragovernmental    Property Databases (8/11/00)
Transactions (6/12/00)                                                 AA00-270 Internal Controls
                                  D-2000-173 Compilation of the
                                                                       Over Selected Revenue,
D-2000-150 Management and         FY 1999 Army Working Capital
                                                                       Expense, and Equity Accounts
Use of Director, Operational      Fund Financial Statements
                                                                       (6/1/00)
Test and Evaluation Funds         (8/15/00)
(6/15/00)                                                              AA00-281 Internal Controls
                                  D-2000-176 Defense Enterprise
                                                                       Over Obligations, Disburse-
D-2000-153 Compilation of the     Fund (15/00)
                                                                       ments, Orders Received, and
FY 1999 Financial Statements
                                  D-2000-177 Revaluation of            Collections (6/6/00)
for Other Defense Organiza-
tions-General Funds (6/23/00)     Inventory for the FY 1999
                                                                       AA00-293 Selected Internal
                                  Department of the Navy
                                                                       Controls and Compliance with
D-2000-156 DoD Payroll            Working Capital Fund Financial
                                                                       Regulations Over Inventory--
Withholding Data for FY 1999      Statements (8/18/00)
                                                                       Army Working Capital Fund
(6/29/00)
                                  D-2000-179 Department-Level          (7/24/00)
D2000-158 General PP&E            Accounting Entries for FY 1999
                                                                       AA00-307 Inventory and
Databases Supporting the NSA      (8/18/00)
                                                                       Financial Management
(CLASSIFIED) (6/29/00)
                                  D-2000-181 Army FY 1999              (6/30/00)
D-2000-159 U.S. Joint Forces      Financial Reporting of Conven-
                                                                       AA00-313 Selected Liabilities--
Command Comptroller Division      tional Ammunition (8/31/00)
                                                                       Army Working Capital Fund FY
Operations (7/12/00)
                                  D-2000-182 Data Processing           99 Financial Statements
D-2000-160 Compilation of the     Control Issues for the FY 1999       (6/23/00)
FY 1999 Army General Fund         Military Retirement Fund
                                                                       AA00-335 Compilation of
Financial Statements at the        (FOR OFFICIAL USE ONLY)
                                                                       Army Working Capital Fund FY
Defense Finance and               (8/31/00)
                                                                       99--Statement of Financing
Accounting Service Indianapolis
                                  D-2000-183 Navy FY 1999              (7/31/00)
Center (7/12/00)
                                  Financial Reporting of
                                                                       AA00-348 Recommended
D-2000-165 The Prior Period       Operating Materials and
                                                                       Adjustments to the Army
Adjustment to Remove National     Supplies – Ammunition (9/1/00)
                                                                       Working Capital Fund FY 99
Defense Property, Plant, and
                                  D-2000-184 FY 1999 DoD               Financial Statements (8/21/00)
Equipment From the General
Fund Balance Sheet (7/21/00)      Superfund Financial
                                  Transactions (8/31/00)




                                                A-4
Semiannual Report to the Congress                                                         Appendix A


AA00-200 Army’s General             AA00-417 Compilation of           N2000-0032 Fiscal Year 1999
Fund Principal Financial State-     Army Working Capital Fund FY      Financial and Accounting
ments for the Fiscal Year 1999--    99 Statement of Budgetary         Internal Controls at Defense
Financial Reporting of Army         Resources (9/25/00)               Distribution Depot, Norfolk, VA
General Equipment (4/4/00)                                            and Fleet Industrial Supply
                                    AA00-418 Property, Plant and      Center, Norfolk, VA (8/7/00)
AA00-201 Army’s General             Equipment--Army Working
Fund Principal Financial State-     Capital Fund FY 99 Financial      N2000-0033 Department of the
ments for Fiscal Year 1999--        Statements (9/29/00)              Navy Principal Statements for
Selected Controls for Wholesale                                       Fiscal Year 1999: Reporting of
Munitions (5/4/00)                  AA00-429 Internal Controls        Real Property (Buildings,
                                    Over Obligations, Disburse-       Structures, and Facilities)
AA00-213 Army’s General             ments, Orders Received and        (7/31/00)
Fund Principal Financial State-     Collections--Army Working
ments for FY 1999--Manage-          Capital Fund (9/26/00)            N2000-0034 Department of the
ment of Controls Over Army                                            Navy Principal Statements for
Corps of Engineers Military         AA00-393 Army National            Fiscal Year 1999: Statement of
Construction in Progress            Guard Bonus Programs (9/8/00)     Budgetary Resources (8/10/00)
(4/20/00)
                                    AA00-403 Army Working             N2000-0035 Allocation of
AA00-220 Army’s General             Capital Fund FY 99 Financial      Depot Maintenance Workload
Fund Principal Financial State-     Statements--Inventory Controls    Between Public and Private
ments for Fiscal Year 1999--        (9/22/00)                         Sectors (8/10/00)
Financial Reporting of
Liabilities (4/21/00)               Navy Audit Service                N2000-0038 Department of the
                                    N2000-0022 Assessment of          Navy Working Capital Fund
AA00-223 Army’s General             Marine Corps Financial            Fiscal Year 1999 Real Property
Fund Principal Financial State-     Reporting (4/12/00)               (8/28/00)
ments for Fiscal Year 1999--
Financial Reporting of              N2000-0023 Department of the      N2000-0043 Department of the
Budgetary Resources (4/28/00)       Navy Principal Statements for     Navy Required Supplementary
                                    Fiscal Year 1999: Inventory and   Stewardship Information Report
AA00-275 Army’s General             Related Property, Net (5/15/00)   for Fiscal Year 1999: National
Fund Principal Financial                                              Defense Property, Plant, and
Statements for Fiscal Year          N2000-0025 Department of the      Equipment (9/25/00)
1999--Updating Financial            Navy Principal Statements for
Information in Army Real            Fiscal Year 1999: Accrued         N2000-0045 Navy Working
Property Databases (6/9/00)         Payroll and Benefits (5/31/00)    Capital Fund Financial
                                                                      Management Feeder Systems
AA00-422 Conventional               N2000-0030 Department of the      for Fiscal Year 1999 (9/29/00)
Ammunition Working Capital          Navy Principal Statements for
Fund Closeout--Financial            Fiscal Year 1999: Accounts        Air Force Audit Agency
Operations (9/29/00)                Receivable (7/21/00)              00051017 Military Permissive
                                                                      Temporary Duty (7/19/00)
AA00-361 Internal Controls          N2000-0031 Department of the
Over Selected Revenue,              Navy Principal Statements for     00053010 Military Pay, Fiscal
Expense, and Equity Accounts--      Fiscal Year 1999: Accounts        Year 1999 (9/22/00)
Army Working Capital Fund FY        Payable Reporting Process
99 Financial Statements             (7/28/00)                         00054001 Proportional Per
(9/11/00)                                                             Diem (7/31/00)
AA00-399 Compilation of                                               00054002 Memorandum
Selected Army Working Capital                                         Report, Controls Over
Fund FY 99 Financial                                                  Contingency Operation Funds
Statements (9/25/00)                                                  (8/31/00)


                                                  A-5
Appendix A                                                            Semiannual Report to the Congress


00054005 Controls Over Cash         99068003 Supply Management           IG, DoD
(8/18/00)                           Activity Group Sales and
                                                                         D-2000-116 Configuration
                                    Accounts Receivable, Fiscal
00054009 Confidential                                                    Changes to Year 2000
                                    Year 1999 (5/26/00)
Investigative Contingency                                                Compliant Mission - Critical
Funds (9/14/00)                     99068018 Air Force Working           and Date-Dependent Systems
                                    Capital Fund Fiscal Year 1999        (4/26/00)
99051008 Most Efficient             Collections and Disbursements
Organization Performance                                                 D-2000-119 Fiscal Year 1999
                                    (9/1/00)
Reviews (6/21/00)                                                        Automated Document Conver-
                                                                         sion System Program (5/2/00)
99053001 Accounting for
Selected Assets and Liabilities -
                                    HEALTH CARE                          D-2000-122 Information
Fund Balance With Treasury,                                              Assurance in the Advanced
Fiscal Year 1999 (8/28/00)          (Includes health care issues,        Logistics Program (5/12/00)
                                    such as military treatment
99053003 Inventory and              facilities and CHAMPUS.)             D-2000-125 Audit of the
Related Property (9/20/00)                                               Reporting Requirements for
                                    IG, DoD                              Major Automated Information
99053006 Accounting for Air                                              System Programs (5/17/00)
                                    D-2000-191 Inventory
Force Real Property, Fiscal Year
                                    Management of Navy Fleet             D-2000-142 Defense
1999 (8/24/00)
                                    Hospitals by the Fleet Hospital      Information Systems Agency’s
99053007 Revenue and Other          Support Office, Cheatham             Acquisition Management of the
Financing Resources -               Annex, Virginia (9/22/00)            Global Combat Support System
Resources Provided, Fiscal Year                                          (6/9/00)
                                    Army Audit Agency
1999 (7/27/00)
                                    AA00-345 Joint Support               D-2000-151 Acquisition and
99053008 Supplementary              Agreement for Healthcare             Management of the Defense
Stewardship Reporting, Fiscal       Services (8/14/00)                   Joint Accounting System
Year 1999 (7/31/00)                                                      (6/16/00)
                                    Air Force Audit Agency
99054013 Debt Recoupment -                                               D-2000-162 Summary of
Individual (6/14/00)                00051013 Memorandum                  Audits of Acquisition of Infor-
                                    Report, Air National Guard           mation Technology (7/13/00)
99054034 Memorandum                 Injury and Illness Compensation
Report, Headquarters Air            (7/20/00)                            D-2000-190 Year 2000
Reserve Command Aviation                                                 Windowing Techniques
Fuels Centrally Managed             99051016 Air National Guard          (9/22/00)
Allotment (4/11/00)                 Hearing Conservation Program
                                    (6/5/00)                             Army Audit Agency
99054038 General Fund                                                    AA00-286 Information
Financial System Reviews                                                 Assurance Phase IV: Reporting
(8/4/00)                            INFORMATION                          Process and Vulnerability
99058011 Reimbursement of           TECHNOLOGY                           Assessment Results (6/30/00)
Expenses for Commercial Space       RESOURCES                            AA00-287 Information
Launch Support (6/9/00)                                                  Assurance Phase V: Reporting
                                    (Includes automated systems;         Process and Vulnerability Alert
99066028 Controls Within the
                                    information technology               IAVA), Process (6/30/00)
Acquisition and Due-In System
(5/1/00)                            resources; and command,
                                    control and communications           AA00-306 Accountability of
                                                                         Computer and Related Tech-
99068002 Air Force Working          (C3) systems.)
                                                                         nology Equipment (8/9/00)
Capital Fund Real Property
(8/18/00)


                                                   A-6
Semiannual Report to the Congress                                                         Appendix A


AA00-336 Total Army Training                                          AA00-266 Incorporating
System Courseware (TATS-C)          INTELLIGENCE                      Legacy Engineering Change
Development (8/18/00)                                                 Proposal Requirements into the
                                    See Classified Annex to this      Global Combat Support System-
AA00-402 Validation of the                                            Army (6/15/00)
Automated Requirements              report.
Model--Reserve (9/28/00)                                              AA00-268 Selected Aspects of
                                                                      U.S. Army Forces Command
Naval Audit Service                 LOGISTICS                         Materiel Management Center
N2000-0024 Y2K Lessons                                                Operations (6/6/00)
Learned (5/01/00)                   (Includes issues relating to
                                    supply systems; transportation    AA00-112 Process for
Air Force Audit Agency                                                Determining Source of Depot
                                    including fuels; and mainte-
                                                                      Level Maintenance (4/24/00)
99058017 Base Network               nance of weapon systems.)
Control Center Operations                                             AA00-362 Depot Maintenance
(7/19/00)                           IG, DoD                           Workload Reporting FY 99
                                    D-2000-113 Required Delivery      (8/31/00)
99058023 Long Haul Commu-
nications Management (7/17/00)      Dates in Requisitions for         AA00-363 Depot Maintenance
                                    Secondary Items of Supply         Workload Reporting FY 00 - FY
99066017 Information                Inventory (4/19/00)               04 (9/11/00)
Assurance - Implementing
Controls Over Known                 D-2000-147 DoD Pilot Program      AA00-366 Use of Funds for
Vulnerabilities in Air Force        for Shipment of Personal          Maintenance Contracts (9/7/00)
Space Command Computers             Property – Military Traffic
(FOR OFFICIAL USE ONLY)             Management Command                AA00-210 Contracts for
(5/26/00)                           Reengineering DoD Personal        Maintenance of Tactical
                                    Property Program Pilot            Equipment in the Field (4/4/00)
99066018 Information                (6/12/00)
Assurance - Implementing                                              AA00-368 Requirements for
Controls Over Known Vulnera-        D-2000-171 Reacquisition of       Nontactical Vehicles (9/1/00)
bilities in Pacific Air Forces      Surplus Materiel by the Defense
Computer Systems (FOR               Logistics Agency (8/9/00)         AA00-194 Equipment
OFFICIAL USE ONLY)                                                    Purchased Through Contracts
                                    D-2000-185 Allegations to the     (4/28/00)
(8/11/00)                           Defense Hotline Concerning
99066024 Information                Management of Obsolete            Naval Audit Service
Assurance - Implementing            Reparable Items (9/7/00)
                                                                      N2000-0041 Depot Level
Controls Over Known Vulnera-        D-2000-193 Administration and     Overhauls of Technical Training
bilities in Air Force Reserve       Management of the Civil Air       Equipment Used at Surface
Command Computers (FOR              Patrol-Phase II (9/27/00)         Training Activities (9/25/00)
OFFICIAL USE ONLY)
(7/7/00)                            Army Audit Agency                 N2000-0044 Quality Assurance
                                                                      Review of the Local Audit
99066064 Followup Audit,            AA00-217 Velocity Manage-         Function at Naval Submarine
Application Controls Within the     ment/Standard Army Retail         Base New London, Groton, CT
Defense Material Utilization and    Supply System-Objective           (9/28/00)
Disposition Program Manage-         Efficiency (4/10/00)
ment System (4/14/00)                                                 N2000-0042 Readiness of the
                                    AA00-232 Embedded Training        F-14 Tomcat Strike-Fighter Air-
                                    For the Global Combat Support     craft (CLASSIFIED) (9/25/00)
                                    System-Army (5/5/00)




                                                  A-7
Appendix A                                                            Semiannual Report to the Congress


Air Force Audit Agency            AA00-272 Army Civilian                 Army Audit Agency
                                  Welfare Fund--Auditor’s Report
00062004 Followup Audit,                                                 AA00-304 Master Cooperative
                                  (6/2/00)
Financial Management of Air-                                             Agreements (6/28/00)
craft Maintenance Contractor      AA00-274 Healthcare for DA
Logistics Support Operations                                             Air Force Audit Agency
                                  Civilians Stationed Overseas
(4/25/00)                         (6/2/00)                               00062003 Followup Audit,
                                                                         Foreign Military Sales
99061003 Small Arms Manage-       AA00-292 Billing and                   Dedicated Training Program
ment (9/25/00)                    Accounting Practices (6/16/00)         Costs (4/10/00)
99062004 Selected Aspects of      AA00-211 Civilian Personnel
Technical Order Management        Regionalization (4/11/00)
(7/28/00)                                                                OTHER
                                  AA00-226 Civilian Personnel
99062011 Quality Deficiency       Regionalization (5/1/00)
Reporting (7/7/00)                                                       IG, DoD
                                  AA00-267 Funding of Aviation           D-2000-111 Security Clearance
99062013 Followup Audit,          Training (6/12/00)                     Investigative Priorities (4/5/00)
Embedded Software Mainte-
nance and Modifications           Naval Audit Service                    D-2000-134 Tracking Security
(5/30/00)                                                                Clearance Requests (5/30/00)
                                  N2000-0026 Timely Adminis-
99062014 T-38 Avionics            trative Separations of Enlisted
                                                                         Air Force Audit Agency
Upgrade Modification (7/14/00)    Personnel Would Significantly
                                  Reduce Cost (6/07/00)                  99058019 Followup Audit,
99058022 Integration of Space                                            Status of Resources and
Assets Into Operations/Concept    N2000-0029 Location of Navy            Training System for Security
Plans and Force Exercises         Advanced Skills Training               Forces (4/19/00)
(8/18/00)                         Courses (7/28/00)
                                                                         Naval Audit Service
00062006 Prepositioned Air-       Air Force Audit Agency
                                                                         N2000-0028 Audit Reporting
craft Fuel Drop Tanks (7/24/00)   00051004 Followup Audit,               (7/17/00)
                                  Active Duty Service Commit-
00062016 Followup Audit,
                                  ments for Advanced Flying
Management of Aircraft Mainte-
                                  Training (8/21/00)                     AUDIT OVERSIGHT
nance Training Within the Air
Force Reserve (7/26/00)                                                  REVIEWS
                                  INTERNATIONAL
QUALITY OF LIFE                   SECURITY ISSUES                        IG, DoD
                                                                         D-2000-6-004 Evaluation of the
                                  (Includes issues relating to           Defense Contract Audit Agency
Army Audit Agency
                                  foreign military sales, foreign        Audit Coverage of Tricare
AA00-285 Interservice Support     military financing, international      Contracts (4/17/00)
Costs and Reimbursements          military education and training,
(6/12/00)                         technology transfers and               D-2000-6-005 Naval Audit
                                  international military                 Service Process for Determining
AA00-355 Quartermaster                                                   Audit Requirements and
Laundry Service--Korea            cooperation.)
                                                                         Requesting Resources (4/17/00)
(8/23/00)
                                  IG, DoD                                D-2000-6-006 Contractor Self-
AA00-228 Improving the            D-2000-130 Foreign National            Governance Programs (4/25/00)
Profitability of Golf Course      Access to Automated Informa-
Operations (4/24/00)              tion Systems (5/26/00)


                                                 A-8
Semiannual Report to the Congress                                                        Appendix A


D-2000-6-007 Evaluation of          D-2000-6-008 Quality Control      D-2000-6-009 Performance of
Contractor Accounting and           Review of Pricewaterhouse         External Quality Control
Estimating for Postretirement       Coopers, LLP, for OMB             Reviews by Military Depart-
Benefit Costs and Related DoD       Circular A-133 Audit Report of    ment Audit Agencies (9/20/00)
Oversight (8/4/00)                  Institute for Defense Analysis,
                                    Fiscal Year Ended                 D-2000-6-010 External Quality
                                    September 25, 1998 (8/14/00)      Control Review of the Defense
                                                                      Contract Audit Agency
                                                                      (9/27/00)




                                                  A-9
Appendix A                                        Semiannual Report to the Congress




             This page left blank intentionally




                           A-10
Semiannual Report to the Congress                                                             Appendix B


                             APPENDIX B*
       INSPECTOR GENERAL, DoD, AUDIT REPORTS ISSUED CONTAINING
              QUANTIFIABLE POTENTIAL MONETARY BENEFITS



                                                                      Potential Monetary Benefits

                                                                       Disallowed     Funds Put to
                 Audit Reports Issued                                    Costs1        Better Use

D-2000-127 Program Management of the Materials and                          N/A          $3,000,000
Processes Partnership for Pollution Prevention (5/22/00)
D-2000-151 Acquisition of the Defense Joint Accounting                      N/A         287,900,000
System (6/16/00)
D-2000-155 Recovery of Commissary and                                       N/A           5,800,000
Nonappropriated Fund Real Property Investments at
Defense Base Realignment and Closure Installations
(6/23/00)
D-2000-164 Bulk Fuel Storage and Delivery Systems                           N/A           3,800,000
Infrastructure Requirements for Yakima Training Center,
Washington (7/20/00)
D-2000-185 Allegations to the Defense Hotline                               N/A           6,800,000
Concerning Management of Obsolete Reparable Items
(9/7/00)
D-2000-188 Contract Management for the National                             N/A           5,900,000
Defense Center for Environmental Excellence (9/14/00)
D-2000-191 Inventory Management of Navy Fleet                               N/A          13,300,000
Hospitals by the Fleet Hospital Support Office, Cheatham
Annex, Virginia (9/22/00)
D-2000-192 Results of the Defense Logistics Agency                          N/A          40,000,000
Strategic Supplier Alliance for Catalog Items (9/26/00)
                                                                                 0     $366,500,000
*Fulfills the requirement of 5 U.S.C., Appendix 3, Section 5(a)(6)
1
 There were no OIG audit reports during the period involving disallowed costs.




                                                        B-1
Appendix B                                        Semiannual Report to the Congress




             This page left blank intentionally




                                    B-2
Semiannual Report to the Congress                                                                   Appendix C


                                            APPENDIX C*
                                        FOLLOWUP ACTIVITIES



       DECISION STATUS OF INSPECTOR GENERAL ISSUED REPORTS WITH
          RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE1
                              ($ in thousands)

                                                                                                  Funds Put
                                   Status                                          Number          to Better
                                                                                                      Use
 A.   For which no management decision had been made by the                              31        $572,500
      beginning of the reporting period.
 B.   Which were issued during the reporting period.                                     85         366,500
      Subtotals (A+B)                                                                   116         939,000
 C.   For which a management decision was made during the reporting                      85         571,700
      period.
          (i)    dollar value of recommendations that were agreed to by
                 management
                   - based on proposed management action                                            156,000
                   - based on proposed legislative action
          (ii)   dollar value of recommendations that were not agreed to                            415,700
                 by management
 D.   For which no management decision has been made by the end of                       31         367,300
      the reporting period.

      Reports for which no management decision was made within 6                              8      13,500
      months of issue (as of September 30, 2000). 2
 1There
       were no OIG audit reports during the period involving questioned costs.
 2
  OIG Report No. 99-064, “Basis for Recent Policy Changes to the Drug Testing Rate for DoD Civilians,” issued
 December 31, 1998; OIG Report No. D-2000-067, “Protection of the Joint Attack Munitions Against Radio
 Frequency Weapons,” issued December 27, 1999; OIG Report No. D-2000-073, “Protection of the Sensor Fuzed
 Weapon Against Radio Frequency Weapons,” issued February 2, 2000; and OIG Report No. D-2000-099,
 “Procurement of the Propeller Blade Heaters for the C-130 and P-3 Aircraft,” issued March 8, 2000, had no
 management decisions made within 6 months of issuance and mediation was ongoing as of October 30, 2000.
 OIG Report No. D-2000-056, “DoD Electronic Mall Implementation Planning,” was issued December 15, 1999,
 and decided October 10, 2000. OIG Report No. D-2000-097, “Accounting Procedures and Controls Over
 Financial Data Supporting Selected Other Defense Organizations,” was issued March 9, 2000, and decided
 October 11, 2000. OIG Report No. 2000-065, “Costs Charged to Other Transactions,” issued December 17, 1999,
 and OIG Report No. D-2000-070, “Evolved Expendable Launch Vehicle Program Other Transactions,” issued
 December 30, 1999, were decided October 30, 2000.

 *Fulfills requirements of 5 U.S.C., Appendix 3, Section 5(a)(8)(9) and Section 5(b)(2)(3).


                                                       C-1
Appendix C                                                                Semiannual Report to the Congress




                   STATUS OF ACTION ON CENTRAL INTERNAL AUDITS1
                                  ($ in thousands)

                                                                        Number of             Funds Put to
                       Status of Action
                                                                         Reports               Better Use
   IG, DoD
         Action in Progress - Beginning of Period                                  286                 $7,810
         Action Initiated - During Period                                           85               156,000
         Action Completed - During Period                                           67               201,814

         Action in Progress - End of Period 2                                      304               160,986

   Military Departments
         Action in Progress - Beginning of Period                                  407            $4,475,732
         Action Initiated - During Period                                          142               898,047
         Action Completed - During Period                                          120               467,079
         Action in Progress - End of Period                                        429             4,811,741
   1
    There were no audit reports during the period involving questioned costs.
   2On
        certain reports (primarily from prior periods) with audit estimated monetary benefits of $366 million, we
   agreed that the resulting monetary benefits can only be estimated after completion of management action, which
   is ongoing.




                                                      C-2
Semiannual Report to the Congress                                                                    Appendix D


                                      APPENDIX D
                             CONTRACT AUDIT REPORTS ISSUED*
                                      ($ in millions)



                                    Reports                                     Audit            Funds Put to
       Type of Audit                                     Examined
                                    Issued                                    Exceptions          Better Use

   Incurred Costs 1                     18,479               $62,217.6             $708.8                  $612.5

   Forward Pricing                        5,686               60,419.9                   --                2,846.1
   Proposals
   Cost Accounting                        1,799                  353.7               335.0                      --
   Standards

   Defective Pricing 2                      630                       --              16.0                      --

   Other 3                                     4                      --                 --                     --

   Totals                               26,598              $122.991.2           $1,059.8             $3,458.6
       1
        Incurred cost funds put to better use are from the cost avoidance recommended in economy and
          efficiency audits of contractor operations.
       2Defective pricing dollars examined are not reported because they are considered a duplication of

          forward pricing dollars reported as examined.
       3Relates to suspected irregular conduct cases.




     *Because of limited time between availability of management information system data and legislative
       reporting requirements, there is minimal opportunity for the DCAA to verify the accuracy of
       reported data. Accordingly, submitted data is subject to change based on subsequent DCAA
       authentication.




                 Waivers of Advisory and Assistance Service Contracts

       A review is made of each waiver of advisory and assistance services contracts
       granted by the Department. This review is required by Section 802, Defense
       Authorization Act for Fiscal Year 1990.

       The Department made no waivers during the period and therefore, no reviews were
       made by the OIG.




                                                      D-1
Appendix D                                        Semiannual Report to the Congress




             This page left blank intentionally




                            D-2
